No. _______

In The

Supreme Court of the United States
DANIEL E. LARKIN AND CHRISTINE LARKIN,
v.

Petitioners,

COMMISSIONER OF INTERNAL REVENUE,
Respondent.

On Petition for a Writ of Certiorari to the
United States Court of Appeals for the
District of Columbia Circuit

APPENDIX

GUINEVERE MOORE
Counsel of Record
AJAY GUPTA
Moore Tax Law Group LLC
150 N. Wacker Dr., Suite 1250
Chicago, IL 60606
(312) 549-9990
guinevere.moore@mooretaxlawgroup.com
ajay.gupta@mooretaxlawgroup.com
LANTAGNE LEGAL PRINTING
801 East Main Street Suite 100 Richmond, Virginia 23219 (800) 847-0477

i
APPENDIX TABLE OF CONTENTS
Opinion of the United States Court of
Appeals for the District of Columbia Circuit,
No. 17-1252, Larkin, et al. v. Commissioner
of Internal Revenue, filed April 21, 2020 ................ A1
Memorandum Findings of Fact and Opinion
of the United States Tax Court, Docket Nos.
14886-08 and 19940-09, Larkin, et al. v.
Commissioner of Internal Revenue, filed
April 3, 2017 ............................................................. A8
Order of the United States Tax Court,
Docket Nos. 14886-08 and 19940-09, Larkin,
et al. v. Commissioner of Internal Revenue,
filed May 17, 2017 .................................................. A84
Order and Decision of the United States Tax
Court, Docket Nos. 14886-08, Larkin, et al. v.
Commissioner of Internal Revenue, filed
September 14, 2017 ................................................ A86
Order and Decision of the United States Tax
Court, Docket Nos. 19940-09, Larkin, et al. v.
Commissioner of Internal Revenue, filed
September 14, 2017 ................................................ A89
Order on Rehearing of the United States
Court of Appeals for the District of Columbia
Circuit, No. 17-1252, Larkin, et al. v.
Commissioner of Internal Revenue,
filed June 15, 2020 ................................................. A92
26 U.S. Code § 6751 ............................................... A94

ii
26 U.S. Code § 7491 ............................................... A95
Petition of Larkin, et al., filed in United
States Tax Court on June 17, 2008 ....................... A97
Petition of Larkin, et al., filed in United
States Tax Court on August 25, 2009 ..................A102
Excerpt from Petitioners’ Opening Post-Trial
Brief, filed in United States Tax Court on
January 12, 2011 ...................................................A109
Excerpt from Appellants’ Opening Brief, filed
in the United States Court of Appeals for the
District of Columbia Circuit, No. 17-1252,
Larkin, et al. v. Commissioner of Internal
Revenue, on October 19, 2019 ..............................A113
Petition for Rehearing, filed in the United
States Court of Appeals for the District of
Columbia Circuit, No. 17-1252, Larkin, et al.
v. Commissioner of Internal Revenue, on
June 2, 2020 ..........................................................A117
Excerpt from IRS Collections, Activities,
Penalties, and Appeals, Table 26: Civil
Penalties Assessed and Abetted, by Type of
Tax and Type of Penalty, Fiscal Year ..................A134
Excerpt from Annual Report to Congress
2018, National Taxpayer Advocate, Vol.1,
Most Serious Problems #20. .................................A135

A1
UNITED STATES COURT OF APPEALS
FOR THE DISTRICT OF COLUMBIA CIRCUIT
No. 17-1252 September Term, 2019
FILED ON: April 21, 2020
DANIEL E. LARKIN AND CHRISTINE LARKIN,
APPELLANTS
V.
COMMISSIONER OF INTERNAL REVENUE,
APPELLEE
On Appeal from the Decisions of
the United States Tax Court
Before: SRINIVASAN, Chief Judge, and ROGERS
and RAO, Circuit Judges.
JUDGMENT
The court considered this appeal on the record
from the United States Tax Court, and on the briefs
of the parties. See Fed. R. App. P. 34(a)(2); D.C. Cir.
R. 34(j). The court has given the issues full
consideration and has determined that they do not
warrant a published opinion. See D.C. Cir. R. 36(d).
It is hereby
ORDERED AND ADJUDGED that the
judgment of the Tax Court be AFFIRMED IN
PART and VACATED AND REMANDED IN
PART.
Taxpayers Daniel and Christine Larkin are dual
citizens of the United States and United Kingdom

A2
who resided in the United Kingdom from 2003 to
2006. During those years, Daniel Larkin worked as a
partner at a law firm and managed a real estate
investment and consultancy business. Although the
couple generated around $400,000 a year in income,
they paid no United States federal income tax for
those four years after claiming various deductions
and tax credits on their returns.
The Commissioner of the Internal Revenue
Service disagreed with the Larkins’ reporting for
those years and issued them notices of deficiency.
The Commissioner assessed deficiencies for those
years totaling $524,140 and penalties totaling
$151,992.
The Larkins challenged the notices of deficiency
in Tax Court. The Tax Court rejected most of the
Larkins’ claimed deductions and credits and largely
upheld the Commissioner’s disallowances and
assessment of additional tax and penalties. See
Larkin v. Comm’r of Internal Revenue, T.C.M (RIA)
2017-54, 2017 WL 1227282, at *3 (2017). The
Larkins now appeal. We affirm the Tax Court’s
decision except as to four discrete errors
acknowledged by the Commissioner.
First, the Larkins forfeit many of their
arguments by wholly failing to develop their claims
or anchor them to the record. See Fed. R. App. P.
28(a)(8)(A); Angelex, Ltd. v. United States, 907 F.3d
612, 620 (D.C. Cir. 2018); Sierra Club v. EPA, 925
F.3d 490, 496 (D.C. Cir. 2019). In many instances in
their briefs, the Larkins claim that a deduction or
credit was substantiated by evidence in the record
but then fail to provide any citation or identification
of which documents ostensibly provide the claimed
substantiation. For example, the Larkins assert that

A3
they “have submitted adequate substantiation” to
support their claimed deductions for expenses
related to their real estate business (i.e., business
computer, nonmortgage interest, travel, meals, and
entertainment), but they provide no citations to the
record and identify no supporting documents.
Appellant’s Br. 19–20. For their claimed home-office
deduction, they go as far as to say that the “Trial
Record” is “replete with substantiation,” but without
providing any citations. Appellant’s Reply Br. 25.
The Larkins also assert various conclusory legal
positions without citing any source of law, as when
they claim, without support, that they are “entitled
to automatic extensions to October 15 in a filing
year” for filing deadlines or that their rental cost
deduction is “a large partnership item entitled to
deference.” Appellant’s Br. 17, 23. (In addition, in
the few instances in which the Larkins do provide
any citations, the citations are often entirely
unhelpful, such as a general reference to an entire
volume of their unpaginated appendix.)
We decline to consider the arguments for which
the Larkins fail to provide support in the record or
law. While the Larkins are pro se litigants, Daniel
Larkin has extensive legal experience working as a
partner for a law firm. And the patent deficiencies in
their briefing are not isolated to a few instances but
are consistent throughout.
The few arguments the Larkins have not
forfeited are meritless. We reject the Larkins’
arguments that the Tax Court was incorrect in
finding inadequate substantiation for their claimed
deductions and credits. We review the Tax Court’s
substantiation determinations for clear error. See
Green Gas Delaware Statutory Tr. v. Comm’r of

A4
Internal Revenue, 903 F.3d 138, 142–143 (D.C. Cir.
2018). For all of the Larkins’ challenges to the Tax
Court’s substantiation determinations, we agree
with the Tax Court’s resolution for the reasons
stated in its decision and find no clear error in its
determinations. In contending that there is sufficient
substantiation in the record for an item, the Larkins
cite the same evidence they referenced in the
proceedings before the Tax Court, but without
explaining why that court erred in determining that
the evidence was insufficient. For their claimed
foreign-tax credits, for example, the Larkins point to
the same forms they relied on in the Tax Court to
substantiate their U.S. tax liability (as is required in
order to validly claim the credit). But the Larkins
fail to address the court’s explanation that those
forms cannot substantiate a taxpayers’ income
because they are filled out by taxpayers themselves.
The Larkins separately argue that, for certain
items resolved against them in the Tax Court, the
burden of proof should have shifted to the
Commissioner. Ordinarily, taxpayers bear the
burden of proof at trial to substantiate the reported
income or claimed deductions and credits on their
return. See Tax Ct. R. 142(a)(1). The burden,
however, can shift to the Commissioner in at least
two circumstances: (i) if the taxpayer presents
“credible evidence” about an item, see I.R.C. §
7491(a); and (ii) if the Commissioner presents a “new
matter” at trial that was not included in the notice of
deficiency, see Tax Ct. R. 142(a)(1). We reject the
Larkins’ burden-shifting arguments for essentially
the same reasons as did the Tax Court.
The Larkins claim that the burden should have
shifted to the Commissioner for their charitable-

A5
contribution deductions because they submitted
adequate, credible evidence at trial. But the sole
evidence they provided was Daniel Larkin’s trial
testimony to the effect that, while he had brought no
documentation with him to support the deductions,
he swore that the payments had been made to
charitable organizations. That testimony does not
qualify as “credible evidence” under Internal
Revenue Code Section 7491(a) that would shift the
burden to the Commissioner. See Higbee v. Comm’r
of Internal Revenue, 116 T.C. 438, 442 (2001)
(explaining that credible evidence is evidence that,
on its own and without contrary evidence, would
suffice to substantiate the deduction).
The Larkins contend that the burden also should
have shifted to the Commissioner in connection with
their real-estate business items because the
Commissioner had put forth a new theory at trial for
the disallowance. But the Commissioner’s theory,
which was that the items were unsubstantiated, had
been clearly noted in the notice of deficiency as an
alternative. The Larkins also argue for a burden
shift with respect to their housing-costs deduction.
The notice of deficiency did not include the
disallowance of that deduction, but that was only
because the Commissioner had no reason to know to
include it given that the Larkins had failed to
correctly report the amounts in the first place. See
Larkin, 2017 WL 1227282 at *14. And even if the
burden should have shifted to the Commissioner on
that item, the evidence in the record establishes that
the Larkins had no right to claim the deduction
because the amounts fall well below the statutory
floor.

A6
Lastly, the Larkins claim the burden should
have shifted in connection with their claimed
foreign-tax
credits.
They
argue
that
the
Commissioner presented a new theory at trial on
that item. Their argument, in particular, is that the
Commissioner contended in the notice of deficiency
that they had not provided adequate documentation
of their payment of foreign taxes, but at trial, the
Commissioner
argued
that
they
had
not
demonstrated the amount of their U.S. tax liability
for those years and had thus failed to show an
entitlement to carry over the credit.
The latter position taken by the Commissioner
was not a “new matter” for purposes of shifting the
burden. A theory does not constitute a “new matter”
when it “merely clarifies or develops the original
determination without being inconsistent or
increasing the amount of deficiency.” Virginia Educ.
Fund v. Comm’r of Internal Revenue, 85 T.C. 743,
751 (1985). The Commissioner was free at trial to
assert grounds concerning the foreign-tax credits
that were “implicitly within the ambit of the
determination in the notice of deficiency.” Pagel, Inc.
v. Comm’r of Internal Revenue, 91 T.C. 200, 212
(1988). Because the Commissioner in the notice of
deficiency had disallowed the Larkins foreign-tax
credit, the Larkins at trial needed to show their
entitlement to claim the credits and carry them over
to later years. That in turn required the Larkins to
demonstrate the amount of their U.S. federal income
tax liability during those years, and the
Commissioner did not assert a “new matter” by
pointing out to the court that the Larkins had failed
to do so. Additionally, in determining whether a
theory amounts to a “new matter” for purposes of

A7
shifting the burden, the Tax Court looks to factors
such as whether the theory required new evidence,
invoked a new area of the code, or changed the
amount of the deficiency, none of which are present
here. See, e.g., Wayne Bolt & Nut Co. v. Comm’r of
Internal Revenue, 93 T.C. 500, 507 (1989); Estate of
Jayne v. Comm’r of Internal Revenue, 61 T.C. 744,
749 (1974).
While the Larkins’ arguments are either
forfeited or meritless, the Commissioner confesses
error on four discrete issues: the inclusion of selfemployment tax in the Larkins’ tax liability, a
computational error resulting in an additional $27 in
income for the year 2003, a computational error
resulting in an additional $10,792 in the assessment
of penalties for the year 2004, and a computational
error resulting in an additional $1,948 in income for
the year 2006. The Commissioner requests a limited
remand to correct those errors and recalculate the
Larkins’ assessments and penalties, and we grant
that request. In all other respects, however, we
affirm the decision of the Tax Court.
Pursuant to D.C. Circuit Rule. 36(d), this
disposition will not be published. The Clerk is
directed to withhold issuance of the mandate until
seven days after resolution of any timely petition for
rehearing or rehearing en banc. See Fed. R. App. P.
41(b); D.C. Cir. R. 41(b).
Per Curiam
FOR THE COURT:
Mark J. Langer, Clerk
BY: /s/
Daniel J. Reidy
Deputy Clerk

A8
SERVED Apr 03 2017
T.C. Memo. 2017-54
UNITED STATES TAX COURT
DANIEL E. LARKIN AND CHRISTINE L. LARKIN,
Petitioners
v.
COMMISSIONER OF INTERNAL REVENUE,
Respondent
DANIEL E. LARKIN AND CHRISTINE LARKIN,
Petitioners
v.
COMMISSIONER OF INTERNAL REVENUE,
Respondent
Docket Nos. 14886-08, 19940-09. Filed April 3, 2017.
Daniel E. Larkin, pro se.
Grubert Roger Markley, for respondent.
MEMORANDUM FINDINGS OF FACT AND
OPINION
GALE, Judge: These cases were consolidated for
purposes of trial, briefing, and opinion. Petitioners
petitioned the Court with respect to respondent’s
statutory notices of deficiency determining the
following deficiencies, additions to tax, and penalties

A9
with respect to petitioners’ Federal income tax for
taxable years 2003 through 2006 (subject years):1
Year Deficiency
2003 $131,507
2004 91,873
2005 142,870
2006 157,890

Addition to tax
sec. 6651(a)(1)
$32,877
-014,287
-0-

Penalty
sec. 6662(a)
$26,301
18,375
28,574
31,578

The notices of deficiency include adjustments
with respect to certain items that passed through to
Mr. Larkin in his capacity as a partner in the law
firm of Squire, Sanders & Dempsey, L.L.P. (SSD).
Those items are “partnership items”2 within the
meaning of section 6231(a)(3).3 As we lack
jurisdiction in this proceeding to redetermine those
partnership items, see sec. 6221; Maxwell v.
Commissioner, 87 T.C. 783, 789 (1986), we treat
them as having been reported correctly by SSD on
Respondent issued a notice of deficiency covering 2003
and 2004 that was timely petitioned in docket No. 14886-08
and a notice of deficiency covering 2005 and 2006 that was
timely petitioned in docket No. 19940-09.
1

Petitioners admit that Mr. Larkin was a partner in SSD,
and the notices of deficiency treat SSD as a “partnership”
within the meaning of sec. 6231(a)(1). Petitioners have not
shown that SSD was a “small partnership” within the meaning
of sec. 6231(a)(1)(B).
2

Unless otherwise indicated, all section references are to
the Internal Revenue Code (Code) as in effect for the subject
years, and all Rule references are to the Tax Court Rules of
Practice and Procedure. All dollar amounts have been rounded
to the nearest dollar.
3

A10
the Schedules K-1, Partner’s Share of Income,
Credits, Deductions, etc., issued to Mr. Larkin for
each subject year, see sec. 6222.
The parties have settled some of the adjustments
in the notices of deficiency.4 We are left to decide the
following issues:
1. whether section 911 entitles petitioners to
exclude from their gross income for the subject years
foreign earned income and housing costs of $184,207,
$174,632, $177,876, and $140,416, respectively.5 We
hold in accordance with respondent’s concession that
Petitioners concede that they failed to report the
following items for 2006: interest of $789 from the Larkin
Family Partnership (LFP), a “small partnership” within the
meaning of sec. 6231(a)(1)(B); interest of $639 from PNC Bank
National Association (PNC); capital gains of $586 from LFP;
and dividends of $1,148 from LFP. Respondent concedes that
petitioners (through LFP) may credit $180 against their rental
income for 2006.
In their opening brief petitioners attempt to place in issue
the above referenced interest for 2006 attributable to LFP and
PNC, which they conceded in the parties’ stipulations. Justice
does not require that we disregard the stipulations underlying
that concession, and we decline to let petitioners now challenge
those conceded items. See Rule 91(e) (stating that stipulations
are conclusive admissions and binding upon by the parties
unless otherwise agreed upon by the parties or allowed by the
Court in the interest of justice).
4

As discussed below, SSD issued Mr. Larkin Schedules K1 for the subject years that reported, among other things, his
share of SSD’s ordinary business income and guaranteed
payments. Petitioners generally reported those items on
Schedules C, Profit or Loss From Business, as if the items were
income from Mr. Larkin’s sole proprietorship, and they
generally did so for 2003 through 2005 net of petitioners’
claimed exclusions under sec. 911. Although petitioners should
have reported Mr. Larkin’s share of SSD’s ordinary business
income and guaranteed payments on Schedules E,
5

A11
section 911 allows petitioners to exclude $80,000
from their gross income for each of 2003, 2004, and
2005 and $82,500 for 2006;
2. whether petitioners failed to report for 2006 a
$23,406 distribution from an individual retirement
account (IRA). We hold they did;
3. whether petitioners failed to report Mr.
Larkin’s distributive shares of ordinary income from
SSD of $16,543 and $29,734 for 2003 and 2005,
respectively. We hold that petitioners reported the
$16,543 distributive share for 2003 but failed to
report the $29,734 distributive share for 2005;
4. whether petitioners may deduct the selfemployment expenses that respondent disallowed for
the subject years. We hold they may deduct only the
amounts stated herein;
5. whether petitioners may deduct $8,610 of
rental expenses for 2003. We hold they may not;
6. whether petitioners may deduct the itemized
deductions that respondent disallowed for the
subject years. We hold they may deduct only the
amounts stated herein;
7. whether petitioners are liable for selfemployment taxes for the subject years as
determined by respondent. We hold they are;
8. whether petitioners may claim the foreign tax
credits that respondent disallowed for the subject
years. We hold they may not;
9. whether petitioners are liable for section
6662(a) accuracy-related penalties for the subject
years. We hold they are; and
Supplemental Income and Loss, see 2003 through 2006
Partner’s Instructions for Schedules K-1 (Form 1065), at 6-7,
our conclusions would remain the same regardless of whether
that income was reported on Schedules C or on Schedules E.

A12
10. whether petitioners are liable for section
6651(a) (1) additions to tax for 2003 and 2005. We
hold they are.6
FINDINGS OF FACT
I. Preliminaries
The parties stipulated certain facts and exhibits.
We find the stipulated facts accordingly, and we
incorporate those facts and exhibits herein.
Petitioners were married and jointly filed a Form
1040, U.S. Individual Income Tax Return (return),
for each subject year. They are U.S. citizens, and
they resided in the United Kingdom (U.K.) when
their petitions were filed.
II. Petitioners’ Employment, Compensation, Other
Business Activities, and Residence
A. Mr. Larkin
Mr. Larkin is an attorney who during the subject
years worked in the U.K. as a partner for the
multinational law firm SSD, earning--as discussed in
more detail below--more than $400,000 for each
subject year. Before joining SSD at some point in
2001,7 Mr. Larkin was employed at Price
The parties also dispute whether respondent properly
reduced petitioners’ deductions for exemptions pursuant to sec.
151(d)(3). The resolution of this issue is a computational
adjustment that flows from our disposition of the other issues.
6

Mr. Larkin’s previous employer’s records document that
he left that employer on June 28, 2001.
7

A13
Waterhouse Coopers LLP (PWC) in the U.K., from at
least as early as sometime in 1999 through June 28,
2001. While at PWC, Mr. Larkin earned the
following amounts and paid the following U.K.
income taxes in U.K. pounds (hereafter £) on the
basis of a fiscal year ending (FYE) March 31:
FYE

Amount earned

U.K. taxes paid

2000
2001
2002

£256,701
264,715
64,317

£95,990
98,836
24,088

Mr. Larkin’s services for SSD during the subject
years included, in addition to legal services,
providing business consulting services and related
advice and serving as a director on the boards of one
or more companies that were SSD’s clients. Some of
SSD’s clients assigned to Mr. Larkin were his clients
before he joined SSD. Those clients continued with
Mr. Larkin after he joined SSD because he and SSD
agreed that Mr. Larkin would continue to serve
those clients personally (but in his capacity as an
SSD partner).
For each subject year, Mr. Larkin received
payments from SSD that were, for purposes of
partnership taxation rules, “guaranteed payments”.
Mr. Larkin participated in a pension plan (a Keogh
plan) that was funded through SSD, and $28,000
and $29,000 of his distributions from SSD were
contributed to that plan on his behalf during 2003
and 2006, respectively.
Mr. Larkin also worked in the U.K. during the
subject years in a real estate business (real estate
business) that he operated as a sole proprietorship.

A14
None of petitioners’ returns for the subject years
identified the real estate business by name, by
principal business, or by product or service, and none
included a Schedule C that specifically reported any
income or expense attributable to the real estate
business.8 Mr. Larkin first transferred funds to the
real estate business during 2003, and he (through
the real estate business) used those funds to buy
property that petitioners sold in 2007.
B. Mrs. Larkin
Mrs. Larkin reported her occupation as
“housewife” or “homemaker” on petitioners’ 2003
through 2005 returns and left her occupation blank
on their 2006 return.
C. Petitioners’ residence
Petitioners’ U.K. residence during the subject
years was in Claygate, England.9
Respondent concedes that the real estate business was a
“business” within the meaning of sec. 162. Petitioners
occasionally suggest that both of them operated the business,
but in the main refer to it as Mr. Larkin’s business, and we so
find. Petitioners are also equivocal on the product(s) and/or
service(s) that the real estate business provided during the
subject years. At trial, Mr. Larkin variously referred to the real
estate business as a real estate trading business, a business
consulting and real estate development business, a real estate
investment business, and a business consulting and real estate
development business. We find that Mr. Larkin’s sole
proprietor business was a real estate development business.
8

Petitioners moved sometime in 2007 to an address in
Cobham, England, as they provided that address on their 2006
return, which was filed on August 14, 2007. However, one of
9

A15
D. Treetops
Treetops, L.L.C. (Treetops), was a limited
liability company that petitioners and another
couple formed under Wisconsin law in or about 1996
for the purpose of holding a vacation home on a lake
in Wisconsin. During the subject years, Treetops’
owners were petitioners and the other couple, with
petitioners having 65% of Treetops’ equity interests,
and the other couple having the remainder. Treetops
did not report any income for the subject years.
III. 2003 Through 2006 Returns
A. 2003
1. Overview
Petitioners filed their 2003 return on May 22,
2005. The 2003 return in relevant part includes the
following documents: (1) a completed Form 1040, (2)
a completed Schedule A, Itemized Deductions, (3) a
completed Schedule C, (4) a completed Schedule E,
(5) a completed Form 1116, Foreign Tax Credit, (6) a
completed Form 2555, Foreign Earned Income, (7) a
completed Form 4684, Casualties and Thefts, (8) a
2003 California Schedule K-1, Partner’s Share of
Income, Deductions, Credits, etc. (California
schedule K-1), that SSD issued to Mr. Larkin and
which lists amounts from the 2003 Schedule K-1

petitioners’ utility bills in the record establishes that they were
paying utilities at the Claygate address through December 31,
2006.

A16
that SSD issued to Mr. Larkin,10 (9) a two-page “Sch
K-1 Supporting Schedules” statement relating to the
2003 Schedule K-1 that SSD issued to Mr. Larkin,
(10) a one-page schedule listing “Deductible Items
Withheld in 2003” that SSD issued to Mr. Larkin,
(11) a Schedule K-1 that Treetops issued to Mr.
Larkin for 2003, (12) a Schedule K-1 that Treetops
issued to Mrs. Larkin for 2003, and (13) a statement
accompanying the Schedules K-1 from Treetops,
listing Treetops’ expenses for 2003 (mortgage
interest and property taxes) and the “Member’s
Share” of each expense (and the total thereof).
2. Form 1040
Petitioners reported on their Form 1040 that
their total income for 2003 was $98,161, consisting of
$105,361 of income from Mr. Larkin’s selfemployment and a $7,200 loss from rental real
estate. They claimed that they were entitled to
deduct $75,196 of itemized deductions and $15,250
for personal exemptions, leaving them with taxable
income of $7,715. They reported that they were
subject to tax (including the alternative minimum
tax) of $7,381 and that they were entitled to claim a
$7,381 foreign tax credit that completely offset that
tax.
3. Schedule A
Petitioners claimed on the Schedule A that their
itemized deductions consisted of the following items
and corresponding amounts:
Petitioners’ 2003 return does not include a copy of the
2003 Schedule K-1 that SSD issued to Mr. Larkin.
10

A17
Item

Amount

Real estate taxes
Home mortgage interest and points
Gifts by cash or check
Casualty or theft loss
Other expenses¹
Total

$7,637
59,095
2,200
4,800
1,400
275,196

¹Petitioners did not specifically identify these other
expenses.
2While petitioners reported that these items total
$75,196, they actually total $75,132.
4. Schedule C
Petitioners reported on the Schedule C that Mr.
Larkin was an attorney working for SSD as a sole
proprietor.11 The address they reported for the sole
proprietorship was an address other than their
residence. Petitioners also reported on this schedule
that Mr. Larkin’s income and expenses (indicated as
computed on an accrual method of accounting) from
his self-employment were as follows:
Income and expenses

Amount

Gross receipts
Expenses:
Depreciation
Insurance (other than health)
Interest (other than mortgage)

$220,000
512
1,150
25,700

For each subject year, notwithstanding Mr. Larkin’s status
as a partner in SSD, petitioners reported items of income and
expense from the partnership on a Schedule C.
11

A18
Office expense
Pension and profit-sharing plans
Rent: vehicles, machinery,
and equipment
Repairs and maintenance
Taxes and licenses
Travel
Deductible meals and entertainment
Utilities
Medical
Home leave
Business use of home¹
Total
Net profit

7,800
28,000
3,820
3,000
12,061
4,800
2,150
2,100
10,396
7,450
5,700
114,639
105,361

¹The Schedule C instructs taxpayers to attach Form
8829, Expenses For Business Use of Your Home,
with respect to this expense. Petitioners’ 2003 return
does not include a Form 8829.
5. Schedule E
Petitioners reported on the Schedule E that they
owned an 11.25% interest in a rental real estate
property. They reported the following items of
income and expense as to that interest:
Income and expenses
Income:
Rents received
Expenses:
Repairs
Depreciation
Total

Amount
$1,410
2,890
5,720
8,610

A19
Net loss

7,200

6. Form 1116
Petitioners reported on the Form 1116 that they
paid or accrued foreign taxes of $341,098 from 1999
through 2001.12 They also reported that they carried
back or carried over $176,225 of those taxes and had
$164,873 of the $341,098 available for credit
($341,098 - $176,225). They reported that they were
entitled to claim $7,381 of the $164,873 as a foreign
tax credit for 2003.
7. Form 2555
Petitioners reported on the Form 2555 that Mr.
Larkin was an “Attorney/Real Estate Developer”
whom SSD employed during the year and that Mr.
Larkin was for the first time filing a Form 2555 to
claim the foreign earned income and housing costs
exclusions. They also reported that Mr. Larkin
received “2003 Foreign Earned Income” of $404,207
from “wages, salaries, bonuses, commissions, etc.”
and paid $115,440 of “qualified housing expenses”
for the year.13 They also reported that they were
The face of the Form 1116 includes a Part II, Foreign
Taxes Paid or Accrued. Part II includes two boxes, one labeled
“Paid” and the other labeled “Accrued”, and states in bold text
right above the boxes that “you must check one” as to a credit
claimed for foreign taxes. Petitioners reported in Part II that
they paid or accrued $341,098 of foreign taxes from 1999
through 2001, but they did not indicate by checking the
appropriate box whether the taxes were paid or accrued.
12

Petitioners calculated the $404,207 by adding the
$16,543 of ordinary income and $387,766 of guaranteed
13

A20
entitled to claim a $104,207 housing exclusion and
an $80,000 foreign earned income exclusion, for a
total exclusion of $184,207. The $220,000 of gross
income reported on the Schedule C represents the
difference between the $404,207 and the $184,207
shown on the Form 2555.
8. Form 4684
Petitioners reported on the Form 4684 that the
$4,800 casualty or theft loss claimed on their
Schedule A related to “Dining Room Ceiling, Alcove,
Fixtures”. They also reported that their basis in the
referenced property was $14,616 before the loss and
that the property had no value after the loss.
9. Schedules K-1
a. SSD
The California schedule K-1 attached to the
return indicated that the 2003 Schedule K-1
reported that Mr. Larkin’s partnership shares of
SSD’s ordinary business income, of SSD’s net income
from rental real estate activities, of SSD’s interest
income, and of SSD’s dividend income were $16,543,
$427, $20, and $1, respectively, and that his
guaranteed payments totaled $387,766. The
California schedule K-1 also indicated that the 2003
Schedule K-1 reported that Mr. Larkin’s share of
SSD’s net loss with respect to capital assets was $1
payments shown on the Schedule K-1 that SSD issued to Mr.
Larkin (discussed below) and then subtracting the sum of a $1
loss plus $101 in charitable contributions also shown on that
schedule.

A21
and that his share of SSD’s charitable contributions
was $101. The two-page statement attached to the
return reported among other things that
“Contributions to Pension Plan” totaled $28,000. The
one-page schedule attached to the return reported as
to Mr. Larkin that, among other things, SSD had
withheld $8,396 for medical insurance premiums.
b. Treetops
Treetops issued each petitioner a Schedule K-1
stating that each owned a 32.5% interest in
Treetops. Each Schedule K-1 also stated that each
petitioner’s
distributive
share
of
Treetops’
deductions was $4,116. A statement included in the
return reported that Treetops’ mortgage interest and
property taxes for the year were $6,300 and $6,364,
respectively ($12,664 in total), and that the
“Member’s Share” of each deduction was $2,048 and
$2,068, respectively ($4,116 in total).
B. 2004
1. Overview
Petitioners’ 2004 return in relevant part includes
the following documents: (1) a completed Form 1040,
(2) a completed Schedule A, (3) a completed Schedule
C, (4) a completed Form 2555, (5) a completed Form
4684, (6) a Schedule K-1 that SSD issued to Mr.
Larkin and an accompanying one-page “Sch K-1
Supporting Schedules” statement with respect to Mr.
Larkin, and (7) a completed Form 1065, U.S. Return
of Partnership Income, for Treetops, accompanied by
a copy of the Schedules K-1 that Treetops issued to

A22
its four owners and a statement listing Treetop’s
deductions for 2004 and each petitioner’s share of
those deductions. The 2004 return does not include a
Form 1116, although petitioners claimed a foreign
tax credit of $6,787 on the return.
2. Form 1040
Petitioners reported on their Form 1040 that
their total income for 2004 was $117,512, consisting
solely of income from Mr. Larkin’s self-employment.
They claimed that they were entitled to deduct
$63,298 of itemized deductions and $15,500 for
personal exemptions, leaving them with taxable
income of $38,714. They reported that they were
subject to a tax (including the alternative minimum
tax) of $6,787 and, as noted, that they were entitled
to claim a $6,787 foreign tax credit that completely
offset that tax.
3. Schedule A
Petitioners claimed on the Schedule A that their
itemized deductions consisted of the following items
and corresponding amounts:
Item
Real estate taxes
Home mortgage interest and points
Gifts by cash or check
Casualty or theft losses
Other expenses (net of 2% of AGI)
Total

Amount
$8,838
48,640
2,930
1,430
1,460
63,298

A23
4. Schedule C
Petitioners reported on the Schedule C that Mr.
Larkin was an attorney working for SSD as a sole
proprietor. They reported the address of the sole
proprietorship as an address other than their
residence. They also reported that Mr. Larkin’s
income and expenses (as computed on an accrual
method of accounting) from his self-employment
were as follows:
Income and expenses

Amount

Gross receipts
Expenses:
Depreciation
Insurance (other than health)
Interest (other than mortgage)
Office expense
Pension and profit-sharing plans
Rent: Vehicles, machinery,
and equipment
Repairs and maintenance
Taxes and licenses
Travel
Deductible meals and entertainment
Utilities
Medical
Home leave
Business use of home
Total
Net profit

$242,000
670
1,350
27,610
8,370
28,000
4,320
5,390
10,927
4,670
1,905
2,485
13,941
8,680
6,170
124,488
117,512

A24
5. Form 2555
Petitioners reported on the Form 2555 that Mr.
Larkin was an attorney whom SSD employed during
the year. They also reported that Mr. Larkin
received “2004 Foreign Earned Income” of $416,606
from “wages, salaries, bonuses, commissions, etc.”
and paid $106,213 of “qualified housing expenses”
for the year.14 They also reported that they were
entitled to claim a $94,632 housing exclusion and an
$80,000 foreign earned income exclusion, for a total
exclusion of $174,632. The $242,000 of gross income
reported on the Schedule C equals the $416,606
“wages’ reported on the Form 2555, plus Mr.
Larkin’s $26 distributive share of interest income
reported on the Schedule K-1 that SSD issued to
him, minus the $174,632 exclusion claimed on the
Form 2555.
6. Form 4684
Petitioners reported on the Form 4684 that the
$1,430 casualty or theft loss related to a van, a
sailboat, garden lighting, and a fourth item that is
illegible. They also reported that their bases in these
properties before the loss were $50,000, $4,000,
$5,000, and $2,800, respectively; that the fair
market values of these properties before the loss
Petitioners apparently calculated the $416,606 in wages
by adding the $415,880 of guaranteed payments and the $726
of rental real estate income shown on the Schedule K-1 that
SSD issued to Mr. Larkin (discussed below). The parties have
stipulated that petitioners failed to report this $726, but we
conclude that this stipulation is contrary to the facts. See Rule
91(e); Jasionowski v. Commissioner, 66 T.C. 312, 318 (1976).
14

A25
were $30,000, $2,500, $3,000, and $1,500,
respectively; and that the fair market values of these
properties after the loss were $23,220, $0, $500, and
$0, respectively.
7. Schedules K-1
a. SSD
The Schedule K-1 that SSD issued to Mr. Larkin
for 2004 reported that his partnership shares of
SSD’s ordinary business income, of SSD’s net income
from rental real estate activities, of SSD’s interest
income, and of SSD’s dividend income were $30,323,
$726, $26, and $94, respectively, and that his
guaranteed payments totaled $415,880. The
Schedule K-1 also reported that Mr. Larkin’s share
of the losses from capital assets totaled $555 and
that his share of other deductions was $170. The
one-page supporting statement repeated the juststated amounts and characterizations of Mr.
Larkin’s shares of SSD’s net income from rental real
estate activities, of SSD’s interest income, and of
SSD’s dividend income, as well as his guaranteed
payments and a portion of the loss from capital
assets, and made no mention of any payment of
medical insurance premiums or contribution to Mr.
Larkin’s pension plan.
b. Treetops
Petitioners’ 2004 return includes a copy of a
Form 1065 for Treetops for 2004. Treetops’ 2004
return reports that Treetops’ only item of income or
expense was “other deductions” totaling $12,274 and

A26
that these deductions consisted of mortgage interest
of $5,600 and property taxes of $6,674. The
Schedules K-1 and accompanying statement that
Treetops issued to petitioners for 2004 report that
each petitioner owned a 32.5% interest in Treetops
and that each petitioner’s distributive share of the
other deductions was $3,989.
C. 2005
1. Overview
Petitioners’ return was filed on July 16, 2006.
The 2005 return included in relevant part the
following documents: (1) a completed Form 1040, (2)
a completed Schedule A, (3) a completed Schedule C,
(4) a completed Form 1116, (5) a completed 2005
Form 2555, (6) two Schedules K-1 that Treetops
apparently issued to petitioners,15 and (7) a 2005
Wisconsin schedule 3K-1, Partner’s Share of Income,
Deductions, etc. (Wisconsin schedule 3K-1), that
Treetops issued to Mrs. Larkin. Petitioners did not
attach to their 2005 return a Schedule K-1 from SSD
or any schedule or statement that SSD prepared
with respect to that year.
2. Form 1040
Petitioners reported on their Form 1040 that
their total income for 2005 was $98,650, consisting
solely of income from Mr. Larkin’s self-employment.
They claimed that they were entitled to deduct
These schedules list certain limited information as to
Treetops but do not report any amounts of income, deductions,
or credits. Nor do they state to whom they were issued.
15

A27
$65,472 of itemized deductions and $16,000 for
personal exemptions, leaving them with a taxable
income of $17,178. They reported that they were
subject to tax (including the alternative minimum
tax) of $3,013 and that they were entitled to claim a
$3,013 foreign tax credit that completely offset that
tax.
3. Schedule A
Petitioners reported on the Schedule A that their
itemized deductions consisted of the following items
and corresponding amounts:
Income and expenses

Amount

Real estate taxes
Home mortgage interest and points
Gifts by cash or check
Other expenses (net of 2% of AGI)
Total

$8,970
51,310
2,790
2,408
¹65,472

¹While petitioners reported that these items total
$65,472, they actually total $65,478.
4. Schedule C
Petitioners reported on the Schedule C that Mr.
Larkin was an attorney working for SSD as a sole
proprietor. They reported the address of the sole
proprietorship as an address other than their
residence. They also reported that Mr. Larkin’s
income and expenses (as computed on an accrual
method of accounting) from his self-employment
were as follows:

A28
Income and expenses

Amount

Gross receipts
Expenses:
Depreciation
Insurance (other than health)
Interest (other than mortgage)
Office expense
Pension and profit-sharing plans
Rent: Vehicles, machinery,
and equipment
Repairs and maintenance
Taxes and licenses
Travel
Deductible meals and entertainment
Utilities
Medical
Home leave
Business use of home
Total
Net profit

$234,000
720
1,470
31,370
8,730
28,000
4,770
5,720
11,540
6,380
3,210
2,730
14,270
9,570
6,870
135,350
98,650

5. Form 1116
Petitioners reported on the Form 1116 that they
paid or accrued foreign taxes of $341,098 from 1999
through 2001.16 They also reported that they carried
back or carried over $183,012 of those taxes and thus
As previously discussed as to the 2003 Form 1116, the face of
the 2005 Form 1116 contains the same box and instructions
with respect to reporting whether the claimed foreign taxes
were paid or accrued. Petitioners reported in Part II of the 2005
Form 1116 that they paid or accrued $341,098 of foreign taxes
from 1999 through 2001, but they did not indicate by checking
the appropriate box whether the taxes were paid or accrued.
16

A29
had $158,086 of the $341,098 available for credit.
They reported that they were entitled to claim
$6,572 of the $158,086 as a foreign tax credit for
2005.
6. Form 2555
Petitioners reported on the Form 2555 that Mr.
Larkin was an attorney employed at SSD during the
year and that he received “2005 Foreign Earned
Income”
from
“wages,
salaries,
bonuses,
commissions, etc.” of $407,860—the figure SSD
reported as Mr. Larkin’s guaranteed payments on
the Schedule K-1 issued to him.17 Petitioners further
reported that they paid $109,770 of “qualified
housing expenses” for the year, entitling them to
claim a $97,876 housing exclusion which, when
added to an $80,000 foreign earned income
exclusion, entitled them to a total exclusion of
$177,876. The $234,000 of gross income reported on
the Schedule C represents the approximate
difference between the $407,860 and the $177,876
shown on the 2005 Form 2555.18 The Form 2555
instructed petitioners to report the $177,876 in
parentheses on the front of Form 1040 as an item of
In contrast with their reporting on the 2003 Form 2555,
petitioners did not include in the foreign earned income
reported on the 2005 Form 2555 Mr. Larkin’s distributive share
of SSD’s ordinary income of $29,734, as reported to him on the
2005 Schedule K-1 issued to him by SSD.
17

The parties have not explained the $4,016 discrepancy
between the $234,000 of reported gross income and the
$229,984 figure that results when $407,860 of foreign earned
income reported on the Form 2555 is reduced by $177,876
foreign earned income exclusion reported on that form.
18

A30
other income and then to subtract the $177,876 from
their income to arrive at their total income.
7. Schedules K-1
a. SSD
SSD issued Mr. Larkin a Schedule K-1 for 2005
which reported that his partnership shares of SSD’s
ordinary business income, of SSD’s net income from
rental real estate activities, and of SSD’s interest
income were $29,734, $723, and $60, respectively,
and that his guaranteed payments totaled $407,860.
The Schedule K-1 also reported that Mr. Larkin’s
share of gains from capital assets totaled $9.
b. Treetops
Petitioners attached to their 2005 return a
Wisconsin schedule 3K-1 that Treetops issued to
Mrs. Larkin for 2005. The schedule reported that
Mrs. Larkin owned a 32.5% interest in Treetops and
that her distributive share of Treetops’ loss for 2005
was $3,852. A statement accompanying the schedule
reported that Treetops’ deductions were mortgage
interest and property taxes of $4,900 and $6,954,
respectively ($11,854 in total), and that Mrs.
Larkin’s share of the total deduction was $3,852.
D. 2006
1. Overview
Petitioners’ 2006 return in relevant part
included the following documents: (1) a completed

A31
Form 1040, (2) a completed Schedule A, (3) a
completed Schedule C, (4) a completed Schedule E,
(5) a completed Form 1116, (6) a completed Form
2555, (7) a Schedule K-1 that SSD issued to Mr.
Larkin, and an accompanying two-page “Sch K-1
Supporting Schedules” statement relating to Mr.
Larkin’s interest in SSD, (8) a one-page schedule
listing “Deductible Items Withheld in 2006” that
SSD furnished to Mr. Larkin as to his interest in
SSD, and (9) a Schedule K-1 that Treetops issued to
Larmodt L.L.C.,19 with an accompanying statement.
2. Form 1040
Petitioners reported on their Form 1040 that
their total income for 2006 was $181,546, consisting
of $302,271 of income from Mr. Larkin’s selfemployment, $19,767 of income from Schedule E,
and a negative $140,416 adjustment relating to
Form 2555.20 They claimed that they were entitled to
deduct $72,559 of itemized deductions and $16,500
for personal exemptions, leaving them with a taxable
income of $92,487. They reported that they were
subject to a tax (including the alternative minimum
tax) of $49,459 and that they were entitled to claim a
$49,459 foreign tax credit that completely offset that
tax.

The record does not further identify Larmodt, L.L.C., or
its owners.
19

20

We note a discrepancy in petitioners’ total of $76.

A32
3. Schedule A
Petitioners claimed on the Schedule A that their
itemized deductions consisted of the following items
and corresponding amounts:
Item

Amount

Real estate taxes
Home mortgage interest and points
Gifts by cash or check
Other expenses (net of 2% of AGI)
Total

$9,109
57,670
3,720
2,060
72,559

4. Schedule C
Petitioners reported on the Schedule C that Mr.
Larkin was an attorney working for SSD as a sole
proprietor. They reported the address of the sole
proprietorship as an address other than their
residence. They also reported that Mr. Larkin’s
income and expenses (as computed on an accrual
method of accounting) from his self-employment
were as follows:
Income and expenses

Amount

Gross receipts
Expenses:
Depreciation
Insurance (other than health)
Interest (other than mortgage)
Office expense
Pension and profit-sharing plans

$440,354
765
1,510
23,710
8,420
28,000

A33
Rent: vehicles, machinery,
and equipment
Repairs and maintenance
Taxes and licenses
Travel
Deductible meals and entertainment
Utilities
Medical
Home leave
Business use of home
Total
Net profit

4,670
6,170
12,240
6,820
3,730
2,940
15,330
10,090
7,070
¹137,765
2302,271

¹While petitioners reported that these items total
$137,765, they actually total $131,465.
2While petitioners reported the net profit as
$302,271, the reported gross income of $440,354 less
the reported total expenses of $137,765 equals
$302,589. The reported gross income less the correct
total of the reported expenses, $131,465, equals
$308,889.
5. Schedule E
Petitioners reported on the Schedule E the
following items of income:
Income
Income from Partnerships and
S Corporations:
LFP
Income from Estates and Trusts:
Barb & James Larkin
Total

Amount

$1,937
17,830
19,767

A34
6. Form 1116
Petitioners reported on the Form 1116 that they
paid or accrued foreign taxes of $341,098 from 1999
through 2001.21 They reported that they carried back
or carried over $186,025 of those taxes and thus had
$155,073 of the $341,098 available for credit.
Petitioners did not report on the form that they were
claiming any portion of the $155,073 as a foreign tax
credit for 2006, although they claimed a $49,459
foreign tax credit on their Form 1040 that
completely offset the tax reported as due.
7. Form 2555
Petitioners reported on the Form 2555 that Mr.
Larkin was employed by SSD during 2006 (without
specifying his occupation). They also reported that
Mr. Larkin received “2006 Foreign Earned Income”
of $440,354 from “wages, salaries, bonuses,
commissions, etc.” and paid $112,420 of “qualified
housing expenses” for the year.22 They also reported
As we previously discussed in the case of the 2003 and
2005 Forms 1116, the face of the 2006 Form 1116 contains the
same box and instructions with respect to reporting whether
the claimed foreign taxes were paid or accrued. Petitioners
reported in Part II of the 2006 Form 1116 that they paid or
accrued $341,098 of foreign taxes from 1999 through 2001, but
they did not indicate by checking the appropriate box whether
the taxes were paid or accrued.
21

Petitioners apparently calculated the $440,354 by
adding the $385,331 of Mr. Larkin’s guaranteed payments
reported on the Schedule K-1 that SSD issued to him (discussed
below) and his $55,026 share of ordinary income also reported
on that schedule. The record does not disclose the source of the
22

A35
that they were entitled to claim a $58,016 housing
exclusion and an $82,400 foreign earned income
exclusion, for a total exclusion of $140,416. They
reported and subtracted the $140,416 on the front of
their Form 1040 as “other income” from “Form 2555”
to arrive at their total income.
8. Schedules K-1
a. SSD
The Schedule K-1 that SSD issued to Mr. Larkin
for 2006 reported that Mr. Larkin’s shares of SSD’s
ordinary business income, of SSD’s net income from
rental real estate activities, of SSD’s interest income,
and of SSD’s dividend income were $55,026, $1,397,
$94, and $340, respectively, and that his guaranteed
payments totaled $385,331. The Schedule K-1 also
reported that Mr. Larkin’s share of SSD’s net losses
from capital assets totaled $558 and that his share of
SSD’s other deductions was $384. The two-page
statement reported among other things that
“Contributions to Keogh Plan” totaled $29,000. The
one-page schedule reported as to Mr. Larkin that,
among other things, SSD had withheld $0 for
medical insurance premiums.
b. Treetops
Petitioners’ 2006 return includes a Schedule K-1
that Treetops issued to Larmodt L.L.C. for 2006. It
does not include any Schedule K-1 issued to either
petitioner by Treetops for that year.
$3 discrepancy between the sum of $385,331 + $55,026, or
$440,357, and the reported $440,354.

A36
IV. IRA Distribution
Petitioners received a $23,406 distribution
during 2006 from an IRA at Morgan Stanley Dean
Witter, Inc. A distribution in this amount is not
specifically identified on petitioners’ 2006 return or
on any schedule attached thereto.
V. IRS Revenue Officer
On or about February 18, 2005, an Internal
Revenue Service (IRS) revenue officer mailed to
petitioners a letter advising them that the IRS was
attempting to collect unpaid tax from them.
Approximately two weeks later, he sent petitioners
another letter, setting a meeting with them for April
13, 2005, at the U.S. Embassy in London to discuss
unpaid amounts and unfiled returns. This letter
noted that IRS records showed that petitioners had
not filed Federal income tax returns for 2000, 2002,
or 2003 and owed over $64,000 as to 2000 and 2002
(inclusive of income taxes, interest, and penalties).
Mr. Larkin met with the revenue officer as
scheduled, and they discussed petitioners’ 2002,
2003, and 2004 taxable years, as well as petitioners’
estimated tax payments for 2005.
VI. Time Allotted for Trial Preparation and Notice
Regarding Documentary Evidence
With respect to their docketed case covering
their 2003 and 2004 taxable years, petitioners were
given five months advance notice of their scheduled
trial date. The standing pretrial order accompanying
that notice advised petitioners that any documentary

A37
evidence that a party expected to use at trial (except
for impeachment purposes) and that had not been
stipulated “shall be identified in writing and
exchanged by the parties at least 14 days before the
first day of the trial session.” The initial trial date
was approximately 13 months after respondent
issued the notice of deficiency for those years.23
Shortly before the initial trial date, the parties
jointly moved for a continuance, on the grounds that
petitioners needed additional time to secure
documents to substantiate their claimed foreign tax
credits. The Court granted a continuance, with the
result that the trial was postponed an additional 16
months. In sum, the trial occurred almost 2.5 years
after issuance of the notice of deficiency and 16
months after petitioners received a continuance to
afford them additional time to obtain documents.
With respect to their docketed case covering the
2005 and 2006 taxable years, the comparable period
between issuance of the notice of deficiency and the
trial date was more than 13 months.

The parties stipulated that respondent issued the notice
of deficiency for 2003 and 2004 on March 30, 2009, and the
notice of deficiency for 2005 and 2006 on April 24, 2008. The
notices of deficiency are stipulated exhibits. A review of the
notices of deficiency reveals an obvious error in the parties’
stipulations concerning the issuance dates: They are reversed.
We therefore find contrary to the stipulations that the
2003/2004 notice of deficiency was issued on April 24, 2008, and
the 2005/2006 notice of deficiency was issued on March 30,
2009. See Gerdau MacSteel, Inc. v. Commissioner, 139 T.C. 67,
144 n.55 (2012) (Court may disregard a stipulation that is
clearly contrary to the record).
23

A38
OPINION
I. Overview
Respondent made various determinations in
these cases, and petitioners’ opening brief challenges
some (but not all) of the determinations. We consider
any issue or argument that petitioners did not
advance on brief as having been abandoned, see
Mendes v. Commissioner, 121 T.C. 308, 312-313
(2003); Nicklaus v. Commissioner, 117 T.C. 117, 120
n.4 (2001); Rybak v. Commissioner, 91 T.C. 524, 566
n.19 (1988), and we decide only the issues that
petitioners address on brief. We pause first to
discuss the credibility of the sole witness, Mr.
Larkin, and the burden of proof. We then turn to the
determinations at issue and redetermine them
seriatim.
II. Witness Credibility
We consider Mr. Larkin’s credibility for purposes
of evaluating his testimony. We then weigh his
testimony and each piece of documentary evidence,
draw appropriate inferences, and choose between
conflicting inferences in finding the facts in these
cases. The mere fact that Mr. Larkin’s testimony
was unopposed does not mean that we will make
findings consistent with it. We will not accept the
testimony of witnesses at face value to the extent it
is implausible or not credible in view of the totality
of the surrounding circumstances. See Neonatology
Assocs., P.A. v. Commissioner, 115 T.C. 43, 84
(2000), aff’d, 299 F.3d 221 (3d Cir. 2002).

A39
We generally found Mr. Larkin’s testimony to be
unconvincing. He routinely testified vaguely or in a
conclusory manner, or with an obviously self-serving
motive. We generally do not rely on Mr. Larkin’s
testimony to support petitioners’ positions in these
cases, except to the extent his testimony is
corroborated by reliable documentary evidence.
III. Burden of Proof
Petitioners contend that respondent bears the
burden of proof, for two reasons. Petitioners
primarily argue that respondent bears the burden of
proof under section 7491(a). To that end, they assert
that they presented at trial “[f]ully credible evidence
respecting underlying factual issues * * * and all
other evidence and records required to support
claims were made available to the Service during the
examination and review process (and remains
available to this day)”. They also assert that the
examining agent declined to review documentation
that they presented during the examination and that
respondent’s counsel objected at trial to the
introduction of documents eventually not included in
evidence. They argue secondarily that the burden of
proof is on respondent because respondent’s
determination is without any foundation. They
assert that the determination lacks a foundation
because the IRS declined to conduct an appropriate
examination under the rules applicable to taxpayers
residing abroad.
We do not agree that respondent bears the
burden of proof. The Commissioner’s determinations
set forth in a notice of deficiency are generally
presumed correct. Welch v. Helvering, 290 U.S. 111,

A40
115 (1933); see also Rule 142(a)(1). Section
7491(a)(1), however, provides an exception that
shifts the burden of proof to the Commissioner as to
any factual issue relevant to a taxpayer’s liability for
income tax if (1) the taxpayer introduces credible
evidence with respect to the issue and (2) the
taxpayer has satisfied certain other conditions,
including that he has complied with the
substantiation requirements for any item set forth in
the Code and has maintained all records required by
the Code. See sec. 7491(a)(1) and (2). A taxpayer
bears the burden of proving that he has met the
requirements of section 7491(a). Rolfs v.
Commissioner, 135 T.C. 471,483 (2010), aff’d, 668
F.3d 888 (7th Cir. 2012). In addition, a showing by
the taxpayer that a determination is arbitrary,
excessive, or without foundation also may shift the
burden of proof to the Commissioner. See Helvering
v. Taylor, 293 U.S. 507, 515-516 (1935); Palmer v.
U.S. IRS, 116 F.3d 1309, 1312 (9th Cir. 1997);
Berkery v. Commissioner, 91 T.C. 179, 186 (1988),
aff’d without published opinion, 872 F.2d 411 (3d
Cir. 1989).
Petitioners have not persuaded us that either
section 7491(a) or the “arbitrary, excessive, or
without foundation” rule applies. As to the former,
section 6001 requires taxpayers to maintain such
records as prescribed by the Secretary, and he has
done so in regulations that direct the maintenance of
records “sufficient to establish the amount of gross
income, deductions, credits, or other matters
required to be shown” in an income tax return. Sec.
1.6001-1(a), Income Tax Regs. Petitioners have not
established that they have met this requirement as

A41
to any of the subject years.24 While they introduced
some documents at trial in support of their claimed
deductions and credits, and Mr. Larkin testified that
he had other documents at home in England, the
introduced documents and testimony do not satisfy
petitioners’ burden to establish for purposes of
section 7491(a) that they maintained the necessary
records as to the deductions and credits at issue.
Nor have petitioners met the credible evidence
requirement. Credible evidence is evidence that,
after critical analysis, the Court would consider
sufficient to decide an issue for the party presenting
the evidence, if no contrary evidence were submitted;
and we have previously held that a taxpayer who
provides
only
self-serving
testimony
and
inconclusive documentation failed to provide credible
evidence. See Higbee v. Commissioner, 116 T.C.
438, 442, 443-446 (2001); see also Blodgett v.
Commissioner, 394 F.3d 1030, 1035-1039 (8th Cir.
2005) (holding the same), aff’g T.C. Memo. 2003-212.
While petitioners blame respondent for the lack of
necessary evidence in the record (e.g., asserting that
during the examination they made additional
documents available to the IRS and that
respondent’s counsel objected to the introduction of
documentation into evidence), the responsibility to
produce the requisite admissible evidence rests with
petitioners. Mr. Larkin is an experienced attorney
and during the subject years was a partner in a large
multinational law firm. He surely understood the
necessity to maintain documentation and to produce
it at trial (as well as in the examination) to support
In addition, as we hold below, petitioners have generally
failed to satisfy the substantiation requirements of the Code as
to the disputed deductions or credits for each subject year.
24

A42
petitioners’ claims. His claim at the trial that he
had additional documents at home rings especially
hollow, given his professional background.
We also are unpersuaded by petitioners’ claim
that respondent’s determination lacked the requisite
foundation because, as they maintain, the IRS
declined to conduct an appropriate examination
under the rules that apply for taxpayers residing
abroad. The Court generally will not look behind a
notice of deficiency to examine the propriety of the
Commissioner’s motives or the evidence used or
procedures involved in making the determinations
reflected in a notice of deficiency. See Greenberg’s
Express, Inc. v. Commissioner, 62 T.C. 324, 327
(1974) (refusing to examine the Commissioner’s
failure to provide an Appeals conference). A trial in
this Court commenced in challenge of a notice of
deficiency is a proceeding de novo to redetermine a
taxpayer’s correct tax liability. Taxpayers such as
petitioners have the opportunity to include in the
record any document, testimony, or other evidence
that is relevant, even if it was not previously
accepted or considered by the IRS during the
examination, as long as it is admissible under the
applicable procedures and rules. We base our
findings and holdings on the merits of these cases
and not on any previous record developed at the
administrative level. See id. at 328.
We conclude that petitioners bear the burden of
proof as to the deficiencies, and we hold accordingly.

A43
IV. Exclusions for Foreign Earned Income and
Housing Costs
As reflected in our findings, petitioners reported
Mr. Larkin’s guaranteed payments in each subject
year on their Schedules C as gross receipts. For each
subject year except 2006, they reported as gross
receipts the guaranteed payments net of the section
911 foreign earned income and housing cost
exclusions that they claimed for each year. In the
notices of deficiency, respondent treated the “gross
receipts” figures from each year’s Schedule C as
petitioners’ reported guaranteed payments and
adjusted the amounts for each subject year except
2006 to make them consistent with the guaranteed
payment amounts reported by SSD on the Schedules
K-1 issued to Mr. Larkin, effectively disallowing any
exclusions under section 911. For 2006 petitioners
reported the entire amount of Mr. Larkin’s
guaranteed payments as “gross receipts” on their
Schedule C; that is, without netting out their
claimed section 911 exclusion. Instead, Mr. Larkin’s
guaranteed payments from SSD are, generally
speaking, “partnership items”. See sec. 6231(a)(3);
sec. 301.6231(a)(3)-1(a)(2), Proced. & Admin. Regs.
Consequently, petitioners were, generally speaking,
required either to treat the guaranteed payments on
their returns for the subject years consistently with
the SSD partnership returns or to file statements
identifying the inconsistency. See sec. 6222(a) and
(b). Petitioners having failed either to report the
guaranteed payments consistently with the
Schedules K-1 issued by SSD or to file statements
identifying the inconsistencies, respondent was
entitled to make computational adjustments to

A44
conform petitioners’ reporting of the guaranteed
payment amounts with the Schedules K-1 issued by
SSD, without having to initiate a partnership level
proceeding with respect to SSD pursuant to section
6225. See sec. 6222(c).
However, petitioners’ return positions for all
subject years except 2006—in which they reported
the guaranteed payment amounts after netting out a
foreign earned income and housing exclusion for
each year--constitute claims that they are entitled to
exclude a portion of the guaranteed payments in
each such year pursuant to section 911.25 Their
eligibility for such exclusions requires partner level
determinations, entitling them to deficiency
procedures to resolve the issue. See sec.
6230(a)(2)(A)(i); Woody v. Commissioner, 95 T.C. 193
(1990).
Generally, a U.S. citizen whose tax home is in a
foreign country and who is a bona fide resident of a
foreign country for an uninterrupted period that
includes an entire taxable year may elect to exclude
from gross income his “foreign earned income” and to
exclude or deduct (depending upon whether he is an
employee or self-employed) his “housing cost
amount”, up to certain maximum amounts. See sec.
911.
Respondent now concedes that petitioners are
entitled to the maximum foreign earned income
exclusion under section 911 for each subject year.
Reflecting that concession, we hold that petitioners
are entitled to exclude $80,000 from income for each
Their claim to a sec. 911 exclusion for 2006 was reported
on the return as a negative adjustment to “other income” on
line 21 of the Form 1040, as respondent’s instructions for that
Form provide.
25

A45
of 2003, 2004, and 2005 and $82,400 for 2006,
pursuant to section 911.
Respondent disputes,
however, that petitioners are in addition entitled to
any exclusion for housing costs under that section.
For the reasons discussed below, we agree with
respondent.
The parties each frame their dispute as
concerning whether petitioners may exclude any
housing cost amounts for each subject year. But, as
respondent argues elsewhere with respect to Mr.
Larkin’s liability for self-employment taxes, Mr.
Larkin was self-employed during the subject years,
and consequently the only housing cost benefits to
which petitioners may be entitled are deductions of
those amounts pursuant to section 911(c)(3)(A).26
Under that section, a self-employed individual’s
housing cost amount may be deducted in computing
adjusted gross income, subject to certain limitations
not applicable here.27
A taxpayer’s housing cost amount comprises the
“housing expenses” paid or incurred during the
Sec. 911(c) was amended in 2006 by inserting a new
paragraph (2) and consequently redesignating former
paragraphs (2) and (3) as paragraphs (3) and (4), respectively,
and by modifying, inter alia, the base housing amount floor of
sec. 911(c)(1), discussed further infra. Tax Increase Prevention
and Reconciliation Act of 2005 (TIPRA), Pub. L. No. 109-222,
sec. 515(b)(1) and (2)(B), 120 Stat. at 367. Thus, what was
formerly sec. 911(c)(3)(A) is now codified as sec. 911(c)(4)(A).
These amendments were effective for taxable years beginning
after December 31, 2005. TIPRA sec. 515(d), 120 Stat. at 368.
Thus they are applicable for petitioners’ 2006 taxable year.
Unless otherwise noted, references hereafter are to sec. 911(c)
before its amendment in 2006.
26

See sec. 911(c)(3)(B) for the housing cost amount
deduction limitations.
27

A46
taxable year for the taxpayer’s foreign housing above
a “base housing amount” floor.28 Sec. 911(c)(1); sec.
1.911-4(a), (c), Income Tax Regs.
For taxable years 2003 through 2005 the base
housing amount floor is determined by multiplying
16% of the salary of a U.S. employee compensated at
an annual rate of grade GS-14, step 1, by a fraction
representing the number of days during the taxable
year in which the taxpayer’s tax home is in a foreign
country and the taxpayer satisfies either the bona
fide residence test of section 911(d)(1)(A) or the
presence test of section 911(d)(1)(B).29 Sec.
911(c)(1)(B). For the 2006 taxable year the base
housing amount floor is determined by multiplying
16% of the foreign earned income exclusion amount
by that same fraction. Id.
Petitioners have offered four sets of invoices to
substantiate expenses incurred in connection with
their U.K. residence during the subject years: (1)
mortgage interest payments, (2) local property tax
payments, (3) utility payments, and (4) home repair
and maintenance payments. Home mortgage interest
and local property tax payments are not eligible
Beginning in 2006, the housing expenses which may be
included in calculating a taxpayer’s housing cost amount are
further limited by a ceiling amount prescribed in present sec.
911(c)(2)(A). TIPRA sec. 515(b)(2)(B). However, as discussed
infra, since the amount of housing expenses petitioners
substantiated for 2006 does not exceed the base housing
amount floor, those expenses necessarily do not exceed the sec.
911(c)(2)(A) ceiling, rendering it inapplicable in this case.
28

There appears to be no dispute, and the record supports,
that Mr. Larkin satisfied the bona fide residence test for each of
the subject years, which means the multiplying fraction would
be 1.
29

A47
housing expenses. See sec. 911(c)(2)(A)(ii). Although
utility and maintenance expenses are eligible
housing expenses, see sec. 911(c)(2)(A)(i); sec. 1.9114(b)(1), Income Tax Regs., even if we treat the
proffered
invoices
for
those
expenses
as
substantiating the listed amounts as paid, those
expenses total only £450, £3,052, £5,453, and £903
for 2003, 2004, 2005, and 2006, respectively. In order
to be deductible petitioner’s housing expenses for
those years must have exceeded base housing
amount floors of $11,581, $11,894, $12,191, and
$13,184, respectively.30 After we converted the
pound amounts listed in the invoices to dollar
figures, giving petitioners the benefit of using the
strongest pound to dollar exchange rate that
occurred within each subject year,31 their
substantiated housing costs still fall far below the
foregoing base housing amount floors, as the
substantiated amounts converted to dollars in the
The salary figures for a U.S. employee compensated at
an annual rate of grade GS-14, step 1 for 2003, 2004, and 2005
are available at https://archive.opm.gov/oca/03tables/ html/
gs.asp, https://archive.opm.gov/oca/04tables/html/gs.asp, and
https://archive.opm.gov/oca/05tables/html/gs.asp, respectively.
The salary figures for 2003, 2004, and 2005 were $72,381,
$74,335, and $76,193, respectively. Taking 16% of those figures
yields a base housing amount floor of $11,581, $11,894, and
$12,191 for 2003, 2004, and 2005, respectively. Similarly,
taking 16% of the foreign earned income exclusion amount for
2006 ($82,400) yields a base housing floor of $13,184.
30

We take judicial notice of the following exchange rates
as the strongest pound to dollar rates that occurred during
2003, 2004, 2005, and 2006, respectively (rounded to the
nearest cent), as published by the International Monetary
Fund: £1 = $1.78, £1 = $1.95, £1 = $1.93, and £1 = $1.98. See
http://www. imf.org/external/np/fin/data/param_rms_mth.aspx.
31

A48
manner described would equal $801, $5,951,
$10,524, and $1,788 for the subject years,
respectively. Consequently, petitioners are not
entitled to any housing cost amount deductions for
the subject years.
V. IRA Distribution
Petitioners admit in their petition that they
received a $23,406 IRA distribution from Morgan
Stanley Dean Witter, Inc., in 2006 but contend that
it was reported to them on a Schedule K-1 relating to
a deceased parent and that they reported the
distribution on their 2006 Schedule E. They point to
Part III of their 2006 Schedule E and assert that the
distribution is “clearly shown * * * net of the
associated tax gross up from the estate”. In Part III
petitioners reported a $2,170 “Deduction or loss” and
$20,000 of income with respect to a Schedule K-1
related to “Barb + James Larkin”.
Petitioners’ 2006 return does not include a
Schedule K-1 related to “Barb + James Larkin”, nor
does it include a Schedule K-1 that specifically
reports a $23,406 IRA distribution. We do not find
that the IRA distribution is “clearly shown” in the
referenced part of Schedule E. In fact, we decline to
find that the $23,406 distribution is reported in the
2006 return at all.32 We sustain respondent’s
determination that petitioners failed to report a
$23,406 IRA distribution.
While petitioners did report on their 2006 Schedule E
that they realized $20,000 of income as to a Schedule K-1
related to “Barb + James Larkin”, we are unable to find on the
basis of the limited record at hand that the $20,000 is related
to the IRA distribution.
32

A49
VI. Distributive Share of SSD Partnership Ordinary
Income
Respondent determined in the notices of
deficiency that petitioners had failed to report Mr.
Larkin’s distributive shares of ordinary income from
SSD of $16,543 and $29,734 for 2003 and 2005,
respectively. SSD issued Schedules K-1 to Mr.
Larkin for 2003 and 2005 reporting the foregoing
amounts as described. Those distributive shares are
“partnership items” within the meaning of section
6231(a)(3). See sec. 301.6231(a)(3)-1(a)(1)(i), Proced.
& Admin. Regs. Consequently, as with the
“guaranteed
payments”
previously
discussed,
petitioners were required either to treat Mr. Larkin’s
distributive share of ordinary income from SSD on
their 2003 and 2005 returns consistently with the
SSD partnership returns (as reported to Mr. Larkin
on the Schedules K-1) or to file statements
identifying the inconsistency. See sec. 6222(a) and
(b). They did not file statements identifying any
inconsistent reporting for either year.
Respondent’s position that petitioners had failed
to report Mr. Larkin’s distributive shares of ordinary
income from SSD would entitle him to make
adjustments to petitioners’ returns to render them
consistent with the Schedules K-1 issued to Mr.
Larkin, without having to initiate partnership level
proceedings with respect to SSD pursuant to section
6225. See sec. 6222(c). As noted, respondent made
those adjustments in the notices of deficiency issued
to petitioners. In these circumstances, we have
jurisdiction to adjudicate the effect of these
partnership items on petitioners’ tax liabilities, as
partner level determinations are required to do so.

A50
See Blonien v. Commissioner, 118 T.C. 541, 558-559
(2002).
As outlined in our findings, our review of the
record persuades us that petitioners reported Mr.
Larkin’s $16,543 distributive share of SSD’s
ordinary income for 2003. They did so by including it
in the “gross receipts” reported on Schedule C, albeit
net of the section 911 exclusion they claimed. We
accordingly
do
not
sustain
respondent’s
determination that petitioners failed to report this
amount.
We reach the contrary conclusion with respect to
2005. Petitioners argue that, as with 2003, they
reported Mr. Larkin’s $29,734 distributive share of
ordinary income from SSD as part of “gross receipts”
on the Schedule C, net of the section 911 exclusion
they claimed. On the basis of our review of the
figures, we disagree.
Petitioners reported $234,000 of “gross receipts”
on their 2005 Schedule C. Given the pattern that is
readily apparent in their computation of Schedule C
“gross receipts” on the 2003 and 2004 returns, we
can surmise that petitioners calculated the 2005
gross receipts figure by subtracting the $177,876
section 911 exclusion they claimed on Form 2555
from the $407,860 in guaranteed payments reported
to Mr. Larkin on the Schedule K-1. The result is
$229,984, which leaves $4,016 of the $234,000 in
reported “gross receipts” unaccounted for--a figure
too small to encompass petitioners’ having reported
$29,734 as “gross receipts” before reducing that
figure by their claimed section 911 exclusion.
Consequently,
we
sustain
respondent’s
determination that petitioners failed to report Mr.

A51
Larkin’s distributive share of ordinary income from
SSD of $29,734.
VII. Deductions Arising From the Real Estate
Business
A. Overview
Petitioners reported on their Schedules C for the
subject years that all of Mr. Larkin’s selfemployment expenses listed thereon were related to
his work for SSD as a self-employed attorney.
Respondent disallowed petitioners’ deductions for all
of the reported expenses. Respondent determined
primarily that the reported expenses were the
partnership’s and therefore not deductible by
petitioners. See, McLauchlan v. Commissioner, 558
F. App’x 374 (5th Cir. 2014), aff’g and remanding on
another issue T.C. Memo. 2011-289; Cropland Chem.
Corp. v. Commissioner, 75 T.C. 288, 295 (1980), aff’d
without published opinion, 665 F.2d 1050 (7th Cir.
1981). Respondent determined alternatively that
petitioners had failed to substantiate that the
expenses were actually incurred and paid or that the
expenses served a business purposes.
Petitioners now argue inconsistently with their
reporting on the Schedules C that the expenses-”[w]ith the exception of IRA33 and medical insurance
contributions and some other items required under
the relevant partnership agreements to be paid
directly by partners”--related to the real estate
business. Petitioners assert that Mr. Larkin was a
self-employed consultant and real estate developer
Petitioners incorrectly refer to Mr. Larkin’s Keogh
account as an IRA.
33

A52
during the subject years and that these activities
were separate from his legal practice.34 Petitioners
assert that all expenses reported on the Schedules C
are fully substantiated and deductible, and generally
routine and customary.
We disagree with petitioners’ claim that they
may deduct the expenses reported on their
Schedules C for the subject years. Petitioners appear
to contend that the expenses should be deductible
because they are routine and customary for the
business activities in which Mr. Larkin engaged,
without regard to whether they have been
substantiated. We of course disagree. Petitioners
bear the burden of proving the character and
amount of each expense reported and that they
incurred and paid them.35 See Rule 142(a)(1);
Although it is not clear, it appears that petitioners’
position is that amounts that SSD received from Mr. Larkin’s
former clients were actually realized by Mr. Larkin through his
real estate business. We earlier expressed our rejection of Mr.
Larkin’s testimony to this effect, and we now reject petitioners’
related position as well.
34

Petitioners argue that by virtue of the fact that they
resided abroad, they should be relieved of producing
documentation at trial to substantiate the expenses for which
they claimed deductions. However, there is no exception from
the obligation to substantiate deductions for taxpayers residing
abroad. We note further in this regard that the standing
pretrial order issued to petitioners when these cases were first
set for trial advised them of the requirement that documents to
be used at trial generally must be exchanged beforehand and
that they had an especially lengthy period to prepare for trial.
They were granted a continuance from the original trial date
for the express purpose of obtaining additional documentation
to support their positions.
Petitioners also suggest for the first time on brief--without
support of sworn testimony--that their documents were lost
35

A53
INDOPCO, Inc. v. Commissioner, 503 U.S. 79, 84
(1992); Welch v. Helvering, 290 U.S. at 115.
Section 162(a) generally allows a taxpayer to
deduct all ordinary and necessary expenses paid or
incurred in carrying on a trade or business. Where
those expenses relate to the business use of the
taxpayer’s residence, he may deduct a portion of
residence-related expenses allocable to business use
if a portion of the residence is used (1) exclusively on
a regular basis, as (2) his business’ principal place of
business or (3) a place for meeting with customers,
clients, or patients in the normal course of the
business.36 See sec. 280A(c)(1)(A) and (B); see also
Commissioner v. Soliman, 506 U.S. 168, 172-173
(1993).
Trade or business deductions for travel expenses
are allowable only if the taxpayer satisfies the
stricter substantiation requirements of section
274(d) in addition to the requirements of section 162.
Under section 274(d), no deduction is allowed for
expenses incurred for travel away from a taxpayer’s
home (including meals and lodging) unless the
when they moved (apparently in late 2006 or 2007). In any
event, a taxpayer in these circumstances generally must make
a reasonable effort to reconstruct substantiation where
documents have been lost or destroyed for reasons beyond his
control. See Beck v. Commissioner, T.C. Memo. 2001-198;
Smith v. Commissioner, T.C. Memo. 1998-33; Watson v.
Commissioner, T.C. Memo. 1988-29. There is no evidence that
petitioners made any such attempt to reconstruct their
substantiation.
Residence-related expenses also may be deductible
where they relate to certain storage space or to certain
structures unattached to a dwelling unit. See sec. 280A(c)(1)(C)
and (2). Petitioners do not argue that either of those provisions
is applicable, and we do not further discuss them.
36

A54
taxpayer substantiates, by adequate records or by
sufficient evidence corroborating the taxpayer’s own
statement: (1) the amount of each expense; (2) the
time and place of the travel; and (3) the business
reason or expected business benefit from the travel.
See sec. 274(d); see also sec. 1.274-5T(b)(2), (c),
Temporary Income Tax Regs., 50 Fed. Reg. 4601446016 (Nov. 6, 1985). The Court may sometimes
apply the rule of Cohan v. Commissioner, 39 F.2d
540 (2d Cir. 1930), to estimate a taxpayer’s expenses
when the record does not otherwise establish them
but there is a basis upon which to make a reasonable
estimate. See Vanicek v. Commissioner, 85 T.C. 731,
742-743 (1985). But the Cohan rule may not be
applied to estimate expenses that are subject to
section 274(d). See Sanford v. Commissioner, 50 T.C.
823, 827-828 (1968), aff’d per curiam, 412 F.2d 201
(2d Cir. 1969).
Deductions with respect to certain “listed
property”, including computers, are also subject to
the strict substantiation rules of section 274. See
secs.
274(d)(4),
280F(d)(4).
Among
other
requirements, the taxpayer must establish the
amount of each business use and the total use of the
listed property during the taxable period. Sec. 1.2745T(b)(6)(i)(B), Temporary Income Tax Regs., 50 Fed.
Reg. 46016 (Nov. 6, 1985).
We turn to the disputed deductions with this law
in mind.
B. Home Office Expenses
Petitioners contend that the expenses reported
on the Schedules C for insurance, office expense,
rent, repairs and maintenance, taxes and licenses,

A55
and utilities were paid with respect to their
residence and constitute 10% of the total amounts
paid for these items. They reported 10%, they
contend, on account of the fact that a 300-square-foot
spare bedroom in their residence, representing
approximately 10% of the residence’s total square
footage, was used exclusively for petitioners’
Schedule C real estate business.
We conclude that petitioners have not shown
entitlement to deductions for the business use of
their residence. First, they have produced no
substantiation whatsoever for most of the foregoing
expenses. There is no substantiation for any
insurance expense, office expense,37 rent,38 or taxes
and licenses.39 That leaves the expenses reported for
repairs and maintenance and for utilities, with
respect to which petitioners provided various bills
and invoices as substantiation. Even if we assume
that some portions of these expenses have been
The record includes an invoice for the purchase of a
computer and related equipment in 2002. According to Mr.
Larkin’s testimony, the computer was the source of the
depreciation expenses reported on the Schedules C for the
subject years. We consider that item infra.
37

The Schedules C for the subject years indicate that the
rent expenses were for “Vehicles, machinery, and equipment”.
There is no substantiation in the record for rental expenses of
any type. (Petitioners also claimed a loss from a rental activity
on a Schedule E for 2003, which is considered infra.)
38

Petitioners offered into evidence two real estate tax bills
issued with respect to their U.K. residence for certain of the
subject years. According to Mr. Larkin’s testimony, however,
those bills are offered to substantiate the real estate tax
deductions claimed as itemized deductions on petitioners’
Schedules A for the subject years.
39

A56
substantiated, we conclude that petitioners are not
entitled to deduct those portions because they have
not established that they met the requirements of
section 280A(c)(1)(A) or (B) that their bedroom/office
was used exclusively either as the principal place of
business for their real estate business or as a place
used by clients in the normal course of business.
We reach the foregoing conclusion on the basis of
the preponderance of the evidence. We note first that
the address petitioners provided on the Schedule C
for each subject year was not their residence but
instead the address for the London office of SSD. Mr.
Larkin further testified that the real estate business
began to generate income in 2003 and that his
arrangement with SSD required that revenue from
his nonlegal business activities be routed through
SSD. We note further that, with two exceptions not
pertinent,40 the only income petitioners reported for
the subject years came from SSD. Thus, whatever
income the real estate business may have generated
was accounted for through SSD. Consequently, we
find that, at a minimum, the bookkeeping for the
real estate business was conducted at the SSD
London office. Mr. Larkin’s testimony concerning his
spouse’s involvement in the real estate business was
vague and inconsistent. In any event, to the extent
Mrs. Larkin may have participated in the conduct of
the business, there was no suggestion that she
The two exceptions were (1) a Schedule E attached to
petitioners’ 2003 return that reported $1,410 of rent received
from a rental real estate property that was offset by $8,610 in
expenses, generating a loss that respondent disallowed; and (2)
a Schedule E attached to petitioners’ 2006 return that reported
partnership income of $1,937 from the “Larkin Family
Partnership” and estates and trust income of $20,000” from
“Barb + James Larkin”.
40

A57
conducted it to the exclusion of Mr. Larkin. We
further draw the reasonable inference that the real
estate business activities were generally conducted
during normal business hours and further infer that
Mr. Larkin generally was present at the SSD
London office at these times. Thus, we conclude, Mr.
Larkin conducted a greater-than-insubstantial
portion of the real estate business activities from the
SSD London office. Given the reasonable inferences
concerning Mr. Larkin’s conduct of the real estate
business activities and the site of the business’s
bookkeeping, we conclude that petitioners have
failed to demonstrate that the bedroom/office in their
residence was the principal place of business of the
real estate business. Petitioners have not shown, or
even suggested, that the bedroom/office was used for
meeting clients. Accordingly, petitioners are not
entitled to deduct any amounts arising from the
claimed business use of their residence during the
subject years.41
C. Depreciation
Petitioners reported a depreciation expense on
their Schedule C for each subject year. Mr. Larkin
testified that these items represented depreciation of
computer equipment located in the bedroom/office at
petitioners’
residence.
Petitioners
have
Mr. Larkin testified that an unspecified portion of the
insurance expense related to an automobile that petitioners
used in the real estate business to meet with one of the
business’ partners and to meet with developers. He produced no
substantiation regarding the insurance expenses, however, and
we accordingly are not persuaded that petitioners are entitled
to deduct any portion of the insurance expense that may have
related to an automobile.
41

A58
substantiated the purchase of a computer and
related equipment, with an invoice from 2002, and
the fact that a computer was still in their possession
through at least 2004, with an invoice for computer
repairs dated October 20, 2004.
A depreciation deduction is available only with
respect to property used in a trade or business (or
held for the production of income). Sec. 167(a). As
noted, computers are “listed property”, and therefore
no deductions are allowed with respect to them
unless their business use is substantiated in a
manner that demonstrates the proportion of
business use to total use. See sec. 1.274-5T(b)
(6)(i)(B), Temporary Income Tax Regs., supra.
According to Mr. Larkin’s testimony, the
computer in question was in the bedroom/office in
petitioners’ residence and regularly used by Mrs.
Larkin. In the circumstances, we simply do not find
credible any assertion or implication that the
computer was used 100% for business--at least not
without some additional proof such as the existence
of a second computer in the residence devoted to
personal use. Even if we credited Mr. Larkin’s selfserving testimony to the effect that Mrs. Larkin
regularly assisted in the real estate business
activities, that fact would fall well short of
establishing the amount of business use of the
computer during the subject years. Petitioners have
not demonstrated, or even suggested, the proportions
of business versus personal use of the computer, as
required by section 1.274-5T(b)(6)(i)(B), Temporary
Income Tax Regs., supra, to sustain any deduction
for business use of the computer. Accordingly, we
sustain respondent’s disallowance of the deductions

A59
for depreciation expenses that petitioners claimed on
the Schedules C for the subject years.
D. Interest
Petitioners reported nonmortgage interest
expenses of $25,700, $27,610, $31,370, and $23,710
on their Schedules C for 2003, 2004, 2005, and 2006,
respectively. Mr. Larkin testified that the interest
expenses related mainly to personal lines of credit
used in the real estate business. He also testified
that he obtained against his residence a £50,000
general line of credit for real estate investments.
The only possible substantiation for the interest
expenses reported on the Schedules C are two letters
addressed to petitioners from a representative of the
International Private Banking division of Riggs &
Co. Both letters refer to certain interest that would
be due from petitioners on future dates in 2003 and
2004, but the letters do not establish that the
interest was in fact paid. We accordingly sustain
respondent’s
determination
disallowing
any
deductions for the interest petitioners reported on
the Schedules C.
E. Pension and Profit Sharing
Petitioners reported a $28,000 pension plan
expense on the Schedule C for each subject year.
Respondent determined and argues that petitioners
failed to establish that Mr. Larkin made any
contributions to a pension plan during the subject
years.42 We disagree. For 2003 and 2006 at least, the
Respondent has not disputed Mr. Larkin’s eligibility as a
self-employed individual to deduct contributions to a Keogh
42

A60
supporting schedules to the Schedules K-1 that SSD
issued to Mr. Larkin list contributions made on his
behalf to a pension or Keogh plan of $28,000 and
$29,000, respectively. We are satisfied from the
surrounding circumstances that the supporting
schedules are reliable and that they demonstrate
that Keogh plan contributions in those amounts
were made on Mr. Larkin’s behalf from his
partnership distributions. There are no such
supporting schedules in the record for 2004 and
2005. We accordingly hold that petitioners are
entitled to deduct pension plan contributions of
$28,000 and $29,000 for 2003 and 2006, respectively,
and we sustain respondent’s disallowance of the
deductions for pension plan contributions for 2004
and 2005.
F. Travel, Meals, and Entertainment
Petitioners reported travel expenses of $4,800,
$4,670, $6,380, and $6,820 on their Schedules C for
2003, 2004, 2005, and 2006, respectively. They
reported meals and entertainment expenses (after
reducing the amounts by the 50% limitation imposed
by section 274(n)) of $2,150, $1,905, $3,210, and
$3,750 for those same years, respectively. The
notices of deficiency determined that deductions for
all such expenses should be disallowed for, inter alia,
lack of substantiation. Petitioners proffered no
substantiation at trial, Mr. Larkin testifying that he
had documentation of the expenses at home in the
plan for the subject years. See generally sec. 404(a)(8).
Respondent contends only that petitioners have failed to
substantiate that any contributions were made on Mr. Larkin’s
behalf from his earned income.

A61
U.K. This testimony does not meet the
substantiation requirements of section 274(d). We
therefore
sustain
respondent’s
determination
disallowing any deductions for these expenses.
G. Medical Insurance Premiums
Petitioners reported “medical” expenses on the
Schedules C of $10,396, $13,941, $14,270, and
$15,330 for 2003, 2004, 2005, and 2006, respectively,
all of which respondent disallowed for lack of
substantiation. Mr. Larkin’s testimony clarified that
the expenses so listed represented medical insurance
premiums for himself and his family relating to a
policy in the name of SSD that SSD paid on his
behalf.
A self-employed individual generally is allowed a
deduction for amounts paid during the taxable year
for medical insurance. See sec. 162(1). This
treatment extends to a partner on whose behalf a
partnership has paid for medical insurance. See Rev.
Rul. 91-26, 1991-1 C.B. 184.43
Mr. Larkin testified that the “medical” expenses
reported on the Schedules C are substantiated
through the Schedules K-1 and accompanying
statements that SSD issued to him.
Attached to petitioners’ 2003 return is a schedule
issued to him by SSD reporting that $8,396 was
withheld from his partnership distributions for
medical insurance premiums. Petitioners’ 2006
return contains a similar schedule but it reports that
Respondent has not argued that Mr. Larkin failed to
satisfy any requirement of sec. 162(1) or Rev. Rul. 91-26, 19911 C.B. 184; he contends that petitioners have failed to
substantiate the deductions claimed.
43

A62
$0 in medical insurance premiums was withheld.
Petitioners’ 2004 and 2005 returns do not contain
any SSD-issued or other document referencing
medical insurance premiums.
The SSD statements (or lack thereof as to 2004
and 2005) when viewed in the light of all of the
credible evidence in the record persuade us that SSD
withheld and paid $8,396 in medical insurance
premiums on Mr. Larkin’s behalf for 2003.44
The SSD statement for 2006 persuades us that
no such premiums were paid, and there is no
substantiation for any payment of medical insurance
premiums for 2004 and 2005. We accordingly hold
that petitioners are entitled to deduct $8,396 in
medical insurance premiums for 2003 in computing
their adjusted gross income; and we sustain
respondent’s disallowance of deductions for the
remaining amount reported as a “medical” expense
on petitioners’ 2003 Schedule C and all amounts so
listed on petitioners’ 2004-2006 Schedules C.
H. Home Leave
Petitioners reported expenses for “Home Leave”
on the Schedules C of $7,450, $8,680, $9570, and
$10,090 for 2003, 2004, 2005, and 2006, respectively,
deductions for all of which respondent disallowed.
Mr. Larkin testified that petitioners and their three
daughters traveled to the United States annually
during the subject years to visit relatives and friends
and that SSD did not reimburse him for the costs
Petitioners have offered no explanation for the $2,000
difference between the $8,396 reported on the SSD-issued
statement and the $10,396 reported as a “medical” expense on
their 2003 Schedule C.
44

A63
associated therewith. The amounts reported as home
leave expenses reflect the costs of the annual visits.
Petitioners cite no Code section or other
authority that would allow them to deduct these
apparently personal expenses, and we are not
persuaded that they may deduct any part of them.
See sec. 262 (generally disallowing a deduction for
personal, living, or family expenses). We sustain
respondent’s disallowance of the deductions for these
expenses for all subject years.
VIII. Rental Expenses
Respondent disallowed a deduction for $8,610 of
rental expenses that petitioners claimed on a
Schedule E for 2003 on the grounds that petitioners
failed to establish that the expenses were incurred
and paid or were attributable to property held for
the production of income. Mr. Larkin testified that
the $8,610 was his distributive share of the expenses
reported on the Schedule K-1 that SSD issued to him
for 2003. Petitioners argue that they may deduct
those expenses because “[p]roper substantiation of
this expense was provided with the K-1 filed by * * *
[SSD].”
We do not find attached to petitioners’ 2003
return any Schedule K-1 or other information return
that lists the referenced expenses. Nor are we
persuaded that these expenses are related to SSD.
Given the absence of any substantiation that these
expenses were incurred or paid, we sustain
respondent’s
determination
disallowing
the
deduction.

A64
IX. Itemized Deductions
A. Overview
Respondent disallowed all of petitioners’
itemized deductions claimed on Schedule A for each
subject year on the grounds that petitioners failed to
substantiate that the expenses were incurred and
paid or that they qualified as deductible expenses.
Petitioners argue that these amounts are “routine
and have been fully substantiated” and contend that
they are entitled to deduct them. We analyze each
itemized deduction seriatim bearing in mind that in
order to prevail petitioners must substantiate the
expenses
underlying
these
deductions
notwithstanding whether the expenses are of the
type that comparable taxpayers commonly incur.
B. Real Estate Taxes and Home Mortgage
Interest
Petitioners claimed itemized deductions on
Schedules A for home mortgage interest and real
estate taxes for each subject year. They rely upon
the Schedules K-1 that Treetops issued to them to
substantiate a portion of the deductions. Mr. Larkin
testified that the remaining amounts of home
mortgage interest and real estate taxes relate to
interest and taxes paid with respect to petitioners’
U.K. residence.
In general, for cash basis taxpayers who elect to
itemize deductions, interest paid during the taxable
year with respect to indebtedness incurred in
acquiring a principal and a second residence is
deductible.
See sees. 63(d) and (e), 163(h)(2)-(4);

A65
sec. 1.121-1, Income Tax Regs. Likewise, such
taxpayers may deduct State and local, and foreign,
real property taxes paid within the taxable year.
Sec. 164(a)(1).
Treetops was a “small partnership” within the
meaning of section 6231(a)(1)(B), as the record
establishes that it had, at most, two partners
(petitioners and another married couple)--married
couples being treated for this purpose as a single
partner, see sec. 6231(a)(1)(B)(i)--and there is no
evidence that Treetops made an election at any time
not to be treated as a “small partnership”, see sec.
6231(a)(1)(B)(ii). Consequently, the unified audit
and litigation procedures of the Tax Equity and
Fiscal Responsibility Act of 1982 (TEFRA), Pub. L.
No. 97-248, sec. 402, 96 Stat. at 648, do not apply to
Treetops. See Howell v. Commissioner, T.C. Memo.
2012-303, at *6 n.3; McKnight v. Commissioner, T.C.
Memo. 1991-514, supplemented by 99 T.C. 180
(1992), aff’d, 7 F.3d 447 (5th Cir. 1993). As a result,
the partnership items reported on the Schedules
K-1 Treetops issued to petitioners are subject to
redetermination in this proceeding, rather than in a
partnership-level proceeding
governed
by the
TEFRA
provisions, and petitioners must
substantiate expenses reported on the Schedules
K-1. They have not done so, and accordingly they are
not entitled to deduct the interest and real estate
taxes reported on the Schedules K-1 that Treetops
issued to them.
The only possible substantiation for the
remaining home mortgage interest is the two letters
addressed to petitioners from a representative of the
International Private Banking division of Riggs &
Co. previously discussed. However, as previously

A66
noted, these letters do not establish that any interest
was actually paid. There is no other documentary
evidence in the record that would substantiate the
amounts or timing of any home mortgage interest
payments during the subject years. We accordingly
sustain respondent’s determination disallowing the
home mortgage interest deductions petitioners
claimed for the subject years.
Petitioners offer as substantiation for the
remaining real estate taxes two tax bills from the
Elmbridge Borough Council in Esher, Surrey. Each
bill indicates that the property being taxed is
petitioner’s U.K residence. The first bill, dated
December 4, 2003, states that the amount due for
the fiscal year ended March 31, 2004, is £1,938 and
acknowledges payments to the bill’s date of £1,550,
with a balance due of £388. This bill persuades us
that petitioners have substantiated the payment of
£1,550 in real property taxes for 2003. The second
bill, dated June 4, 2004, states that the amount due
for the fiscal year ended March 31, 2005, is £2,041
and acknowledges payments to the bill’s date of
£410. This bill persuades us that petitioners have
substantiated the payment of £410 in real property
taxes for 2004. We hold that petitioners are entitled
to deduct these amounts for the years noted.45

We expect the parties as part of their Rule 155
computations to agree to a conversion rate to U.S. dollars of
these amounts and to take into account whether any itemized
deductions to which we have held petitioners are entitled would
exceed the standard deduction respondent determined to allow
for each year.
45

A67
C. Gifts
Petitioners claimed charitable contribution
deductions for cash contributions on Schedules A of
$2,200, $2,930, $2,790, and $3,720 for 2003, 2004,
2005, and 2006, respectively, all of which respondent
disallowed for lack of substantiation.
Section 170(a) allows a deduction for charitable
contributions paid within the taxable year “only if
verified under regulations prescribed by the
Secretary”. Section 1.170A-13(a), Income Tax Regs.,
provides that a taxpayer who makes a charitable
contribution of money shall maintain with respect to
the contribution either a canceled check, a receipt
from the donee charitable organization, or “other
reliable written records showing the name of the
donee, the date of the contribution, and the amount
of the contribution.”
Mr. Larkin testified that the gifts were
contributions that he made mainly to church and to
charities and that these gifts were “customary and
appropriate”. He conceded that he did not have any
substantiation to offer at trial for any of the claimed
gifts. In the absence of any substantiation from
petitioners, we sustain respondent’s determination
in full.
D.

Casualty Losses

Petitioners claimed casualty or theft loss
deductions on Schedules A of $4,800 and $1,430 for
2003 and 2004, respectively, both of which
respondent disallowed for lack of substantiation.
An individual taxpayer may generally deduct
losses on property not connected with a trade or

A68
business to the extent that the losses arise from a
casualty such as a fire or storm. See sec. 165(a),
(c)(3). The amount of the deduction is the lesser of
either the difference between the fair market value
of the property immediately before and after the
casualty or the adjusted basis of the property,
diminished by $100 for each incident of loss and by
the amount compensated for by insurance or
otherwise. See sec. 165; sec. 1.165-7(b)(1), Income
Tax Regs. Accordingly, to substantiate a casualty
loss deduction, petitioners must prove, among other
things, the adjusted basis and the fair market value
of the property immediately before and after each
casualty. See Millsap v. Commissioner, 46 T.C. 751,
759-760 (1966), aff’d, 387 F.2d 420 (8th Cir. 1968).
Petitioners did not provide any credible evidence
to substantiate their bases in the relevant property,
or the fair market value of any of the property
immediately before or after the claimed casualty. We
accordingly sustain respondent’s determination in
full.
E. Other Expenses
Petitioners claimed “other expenses” deductions
on Schedules A of $1,400, $1,460, $2,408, and $2,060
for 2003, 2004, 2005, and 2006, respectively, all of
which
respondent
disallowed
for
lack
of
substantiation.46
Mr. Larkin conceded that he did not have at trial
any substantiation for the “other expenses” but that
The amounts petitioners deducted for 2004-2006 were net of
the “2% of AGI” floor on miscellaneous itemized deductions
imposed by sec. 67. The amount they deducted for 2003 was
computed without that limitation.
46

A69
they were “customary and appropriate”. In the
absence of any substantiation from petitioners, we
sustain respondent’s determination in full.47
X. Self-Employment Tax
Petitioners did not report any self-employment tax
liability for any of the subject years. Respondent
determined that petitioners were liable for selfemployment taxes of$21,173, $22,037, $22,879, and
$23,474 for 2003, 2004, 2005, and 2006, respectively.
Individual taxpayers are liable for selfemployment tax on their self-employment income.
See sec. 1401(a). Self-employment income generally
includes an individual’s net earnings from selfemployment in a trade or business, a partner’s
distributive share of income or loss from any trade or
business carried on by a partnership of which he is
an owner, and guaranteed payments from the
partnership. See sec. 1402; sec. 1.1402(a)-1, Income
Tax Regs.; see also Tietig v Commissioner, T.C.
Memo. 2001-190, 82 T.C.M. (CCH) 304,316 (2001),
aff’d, 57 F. App’x 414 (11th Cir. 2003). Petitioners
bear the burden of proving that they are not liable
for the self-employment tax that respondent
determined.
See
Rule
142(a);
Tietig
v.
Commissioner, 82 T.C.M. (CCH) at 316.
There is no dispute that Mr. Larkin had selfemployment income equal to his guaranteed
payments and distributive share of ordinary income
from SSD for the subject years. Instead, petitioners
Petitioners do not seek to deduct State and municipal
nonresident taxes SSD reported on the one-page schedules
related to the 2003 and 2006 Schedules K-1, and we do not
consider that issue.
47

A70
argue that their self-employment income is not
subject to self-employment tax because “they have
been paying into the UK social insurance schemes
and have met the tests under the UK/US Tax Treaty
for credit against US obligations.”
Respondent
argues that petitioners have not established that
they were required to pay into a U.K. social
insurance system that would serve to eliminate their
liability for U.S. self-employment tax, or that
petitioners actually paid into the U.K. system. We
agree with respondent.
Petitioners support their position primarily with
a June 3, 2010, letter that the National Insurance
Contributions Office (of HM Revenue & Customs) in
the U.K. sent to Mr. Larkin. The letter states that it
“contains details of your NICs [National insurance
contributions] from 6 April 1999 to 5 April 2009.”48
As to those years, the letter states, Mr. Larkin made
the following contributions (in U.K. pounds):
For tax
year
1999/2000
2000/2001
2001/2002
2002/2003
2003/2004
2004/2005
2005/2006
2006/2007
2007/2008
2008/2009

As an
employed
person
(Class l)
£2,257.20
2,388.00
634.20
-0-0-0-0-0-0-0-

Selfemployed
(Class 2)
-0-0-0-0-0-0-0-0-0-0-

Voluntary Credits

-0-0-0-0-0-0-0-0-0-0-

-0-0-0-0
-0-0-0-0-0-0-

It is apparent from the letter that a fiscal year ending
April 5 is used for purposes of the U.K. social insurance system.
48

A71
Mr. Larkin testified that, in addition to the
amounts shown in this letter, petitioners paid into
the U.K. social insurance system through a variety
of means, such as through partnership payments,
through individual payments, and through their
payment of taxes.
Petitioners claim that they have proven that
they were required to (and did) make payments in
the U.K. that were the equivalent of paying U.S.
self-employment taxes. We disagree. While it is true
that petitioners contributed to the U.K. social
insurance system during 1999 through 2002,
petitioners have failed to persuade us that they
made any payments to that system during the
subject years. In addition, petitioners have cited no
provision, nor are we aware of any such provision,
that would exempt Mr. Larkin from liability for selfemployment taxes for the subject years simply
because for the three prior years he contributed
£5,279.40 into the U.K. social insurance system.
We
accordingly
sustain
respondent’s
determination that Mr. Larkin is liable for selfemployment taxes for the subjects years as described
above.
XI. Foreign Tax Credits
Petitioners claimed foreign tax credits of $7,381,
$6,787, $6,572, and $49,459 for 2003, 2004, 2005,
and 2006, respectively. The credits offset the tax
reported as due for each year. Respondent
disallowed them all, on the grounds petitioners had
failed to document adequately the payment of taxes
to a foreign government.

A72
Section 901(a) generally allows a taxpayer a
foreign tax credit for foreign income taxes paid.49
Subject to the rules of section 904(a), which
generally limit the credit to the amount of U.S. tax
on foreign income, the credit generally equals the
amount of income tax paid during the taxable year to
a foreign country or a U.S. possession. See sec.
901(b)(1). Generally, any unused foreign tax credit
may be carried back and credited against U.S.
income tax liability for the preceding taxable year (or
in the case of excess foreign taxes arising in taxable
years beginning before October 23, 2004, the
preceding two years) and then, to the extent still
unused, may be carried forward and credited against
U.S. income tax for the following 10 taxable years.
See sec. 904(c).
Respondent concedes that petitioners have
demonstrated that they paid income taxes to the
U.K. aggregating £218,914 during FYE March 31,
2000, 2001, and 2002. There is no evidence in the
record that petitioners paid any additional U.K.
income taxes after March 31, 2002. Petitioners
maintain that they are entitled to carry forward
foreign tax credits in the amounts claimed for the
subject years.50 Respondent disagrees, contending
A cash-basis taxpayer generally must take the foreign
tax credit for the year in which the foreign taxes were paid,
unless the taxpayer elects to take the credit in the year in
which the foreign taxes accrue. See sec. 905(a). We understand
petitioners’ position to be that they did not make such an
election, and we proceed accordingly.
49

In an effort to substantiate their claimed foreign tax
credit carryovers, petitioners offered into evidence Forms 1116
purporting to cover the years 2000 through 2004 that Mr.
Larkin had prepared at the request of respondent’s Office of
50

A73
that petitioners have failed to demonstrate what
portion of the foregoing U.K. taxes paid were
creditable against their U.S. income tax liability for
the taxable years before the subject years; namely,
2000, 2001, and 2002. Consequently, respondent
contends, petitioners have not shown whether or to
what extent they had foreign tax credit carryovers
for the subject years.
We agree with respondent. A taxpayer claiming
a carryover of a credit must establish both the
existence of the credit and the amount of any credit
that may be carried over to a subsequent year. See
Rule 142(a)(1); Segel v. Commissioner, 89 T.C. 816,
842 (l987); cf. Keith v. Commissioner, 115 T.C. 605,
621 (2000). Petitioners’ 2000 through 2002 Federal
income tax returns are not in the record.
The record does establish, however, that Mr.
Larkin earned compensation for the fiscal years
ended March 31, 2000, 2001, and 2002, of £256,701,
£264,715, and £64,317, respectively, creating a
reasonable inference that he incurred U.S. Federal

Appeals when the subject year returns were under review. The
Forms 1116 list the foreign taxes that petitioners claim they
paid during the years covered by the Forms as well as foreign
taxes purportedly paid in years before 2000 and available to be
carried forward to that year for crediting. The figures on these
Forms 1116 differ markedly from the figures used on the
returns as originally filed, casting doubt on both. In any event,
a tax return does not establish the truth of, or substantiate, the
matters set forth therein; it is merely a statement of the
taxpayer’s claim. See Wilkinson v. Commissioner, 71 T.C. 633,
639 (1979); Roberts v. Commissioner, 62 T.C. 834, 837 (1974);
Halle v. Commissioner, 7 T.C. 245, 250 (1946), aff’d, 175 F.2d
500 (2d Cir. 1949). Consequently, the only foreign tax
payments that have been substantiated are those discussed
above.

A74
income tax liabilities for 2000, 2001, and 2002.51
Those Federal income tax liabilities for the years
immediately preceding the subject years would have
absorbed some or all of the foreign tax credits arising
from the payment of the U.K. income taxes that
petitioners have demonstrated. Consequently,
petitioners have failed to prove the amount of any
foreign tax credit carryovers available for the subject
years and we accordingly sustain respondent’s
disallowance of the foreign tax credits claimed.
XII. Section 6662 Accuracy-Related Penalties
Respondent determined for each subject year
that petitioners are liable for an accuracy-related
penalty under section 6662(a) on the basis of
negligence and a substantial understatement of
income tax. The primary basis that respondent
advances on brief is the latter. We limit our
discussion to that ground.
Section 6662(a) and (b)(2) imposes a 20%
accuracy-related penalty for any portion of an
underpayment that is attributable to a substantial
understatement of income tax. An understatement
is the excess of the amount of tax required to be
shown on the return over the amount of tax imposed
that is shown on the return, reduced by any rebate.
See sec. 6662(d)(2)(A).
An understatement is
Mr. Larkin commenced work as a partner at SSD
sometime during the fiscal year ended March 31, 2002. His
compensation from SSD for the period is not in the record, but
in view of the fact that his annual compensation for the subject
years exceeded $400,000 in each year, a reasonable inference
exists that his compensation for SSD during the fiscal year
ended March 31, 2002, was not insignificant.
51

A75
substantial if it exceeds the greater of 10% of the tax
required to be shown on the return or, in the case of
an individual, $5,000. See sec. 6662(d)(1)(A).
The Commissioner bears a burden of production
with respect to the applicability of an accuracyrelated penalty. See sec. 7491(c). That burden
requires that the Commissioner produce sufficient
evidence that it is appropriate to impose an
accuracy-related
penalty.
See
Higbee
v.
Commissioner, 116 T.C. at 446.
Once the
Commissioner has met this burden, the burden of
proof is upon the taxpayer to prove that the
accuracy-related penalty does not apply because (as
applicable here) the taxpayer acted with reasonable
cause and in good faith as to the underpayment. See
sec. 6664(c)(1); Higbee v. Commissioner, 116 T.C. at
446-447.
The deficiency amounts that we have sustained
herein establish that petitioners have an
understatement of income tax for each subject year
that exceeds the greater of$5,000 or 10% of the
amount required to be shown on the return.
We conclude that respondent has met his burden
of production. Petitioners will avoid the accuracyrelated penalties only to the extent that they prove
that they acted with reasonable cause and in good
faith as to the underpayments (or any portion
thereof). Whether they satisfy this standard is a
factual determination; their effort to assess their
proper tax liability is generally the most important
factor. See sec. 1.6664-4(b)(1), Income Tax Regs.
Petitioners argue that they have established
reasonable cause because their returns report all of
Mr. Larkin’s income from SSD and, as to the 2003
through 2005 returns, report their income, credits,

A76
deductions, and exclusions in the way that the
revenue officer told them to.52 Mr. Larkin testified
that petitioners’ returns were complicated because,
in part, in 2003 and 2004 he worked both as a
partner for SSD and in his real estate business, that
he was confused on how to report both activities,
that petitioners could find no qualified person to
help them prepare the returns, and that he sought
the guidance of the IRS as to the preparation of the
returns. He further testified that he met with the
revenue officer, that the revenue officer specifically
directed him how to report the items related to SSD,
to the real estate business, and to petitioners’ income
exclusion, and that he and the revenue officer agreed
that petitioners should file petitioners’ 2003 and
2004 returns on the agreed-upon basis. Mr. Larkin
further testified that he discussed the matter with
some of his colleagues who were tax professionals
and that they confirmed the revenue officer’s
direction.
We find Mr. Larkin’s memory on this subject to
be far from clear, and we decline to rely upon that
testimony. His communications with the revenue
officer were limited, and we are not persuaded that
Petitioners subpoenaed the revenue officer to appear at
trial. At the commencement of the trial, respondent’s counsel
informed the Court that the revenue officer was in Florida on
an exigent family matter. Mr. Larkin, an experienced attorney,
did not seek to enforce the subpoena or ask the Court to leave
the record open for the purpose of eliciting the revenue officer’s
testimony at a later time. Mr. Larkin also did not identify any
issues upon which petitioners desired to elicit testimony from
the revenue officer. Although petitioners in their answering
brief now request that respondent make the revenue officer
available for questioning, the evidentiary record in these cases
is closed.
52

A77
the revenue officer directed Mr. Larkin (let alone
that Mr. Larkin and the revenue officer agreed) on
the proper way to report items on petitioners’ tax
returns. The revenue officer contacted petitioners to
collect their unpaid taxes for prior years; and while
the revenue officer’s ensuing discussions and
correspondence with Mr. Larkin addressed the goal
that petitioners file certain returns, the record does
not lead us to conclude that the revenue officer
directed Mr. Larkin on how the referenced items
should be reported on petitioners’ 2003-2005 tax
returns. We do not find, for example, any notes,
recordings, or other tangible evidence to support Mr.
Larkin’s testimony on this matter although we do
find that Mr. Larkin was mindful to prepare
handwritten notes of at least one of his
conversations with the revenue officer.53
Nor do we accept Mr. Larkin’s testimony that he
tried to locate a qualified professional who was
knowledgeable on both the U.S. and the U.K. tax
regimes to advise him on the matter but that he was
unable to find such an individual. Mr. Larkin
admitted that he regularly consulted accountants
and tax professionals concerning his U.S. and U.K.
income tax returns and that he consulted
professionals to confirm what the revenue officer told
him. He also admitted that (1) SSD has instructional
programs on Federal and U.K. taxation, but that he
attended none of these programs, (2) he knew of
accountants or similar professionals whom he could
have consulted but declined to do so because, he
stated, such advice was expensive and advice that he
While Mr. Larkin testified that he had such notes back
at his home in the U.K., his obligation at trial was to proffer
whatever documentary evidence he had.
53

A78
had received from one professional tax adviser
regularly tended to be inconsistent with the advice
he received from another professional, and (3) SSD
has documentation that its overseas attorneys could
obtain to help them fill out their tax returns. We also
note that petitioners’ status as U.S. citizens residing
abroad arose in 1999 and that they had been
required to take that status into account when filing
their Federal income tax returns for all years
thereafter.
Perhaps most importantly, the understatement
of income tax for each year is due to petitioners’
failure to navigate successfully any complex tax
provisions arising from the U.K. situs of Mr. Larkin’s
gainful employment. For example, to the extent
petitioners reported Mr. Larkin’s guaranteed
payments and other partnership distributions on
their Schedules C (rather than Schedules E), net of
their claimed foreign earned income exclusion, that
idiosyncratic reporting did not give rise to any
understatements of income tax. They have been
accorded the maximum foreign earned income
exclusion for each year, and they were denied any
deductions for foreign housing costs because they
failed to substantiate them in amounts above
applicable floors--even though they reported
substantially larger housing expenses on their
returns. The remainder of each understatement of
income tax is due, primarily, to an utter failure to
substantiate items reported on their returns running
into the thousands of dollars and to a lesser extent to
failures to report income of which petitioners were
fully aware. In sum, the absence of reasonable cause
here is patent; we are not persuaded that petitioners
made a good-faith effort to determine their tax

A79
liability for any of the subject years. We sustain
respondent’s determinations of the accuracy-related
penalties.
XIII. Section 6651(a)(1) Additions to Tax
Respondent determined that petitioners are
liable for additions to tax pursuant to section
6651(a)(1) for 2003 and 2005 for failure to file timely.
That section imposes an addition to tax for failure to
file a return by its due date unless the taxpayer
demonstrates that the failure to file was due to
reasonable cause and not due to willful neglect. The
addition to tax equals 5% (of the tax that is due and
not paid) for each month (or fraction thereof) that
the return is late, but may not exceed 25% in total.
See sec. 6651(a)(1), (b)(1). Thus, the maximum
addition to tax is reached when a return is more
than 4 months late. Reasonable cause may exist if a
taxpayer exercised ordinary business care and
prudence and was nonetheless unable to file a return
within the time prescribed by law.
See sec.
301.6651-1(c)(1), Proced. & Admin. Regs. Willful
neglect connotes “a conscious, intentional failure or
reckless indifference” with respect to timely filing.
United States v. Boyle, 469 U.S. 241, 245 (1985).
The Commissioner bears the burden of
production with respect to the addition to tax under
section 6651(a)(1). See sec. 7491(c); Higbee v.
Commissioner, 116 T.C. at 446-447. To meet this
burden, he must produce sufficient evidence that it
is appropriate to impose the addition to tax. Once
the Commissioner has met his burden, the burden of
proof as to reasonable cause or other mitigating

A80
factors shifts to the taxpayer. See Higbee v.
Commissioner, 116 T.C. at 447.
Petitioners’ 2003 return was due April 15,
2004,54 and was filed May 22, 2005.55 Petitioners’
2005 return was due on June 15, 2006,56 and was
filed on July 16, 2006.57 Accordingly, respondent has
met his burden of production with respect to the
additions to tax. See id.

54 Although sec. 1.6081-5(a)(5), Income Tax Regs., grants
an additional two months beyond April 15 for filing in the case
of U.S. citizens or residents whose tax homes are outside the
United States, sec. 1.6081-5(b), Income Tax Regs., as in effect
for 2003 returns, requires that a statement be attached to the
return to the effect that the taxpayer satisfies the tax home
requirement. There is no evidence that any such statement was
attached to petitioners’ 2003 return. In any event, it makes no
difference whether petitioners’ 2003 return was due on April 15
or June 15, 2004, as the maximum 25% penalty for a delay
exceeding four months would apply (absent reasonable cause),
given that the return was not filed until May 22, 2005.
55 That is the date of petitioners’ signatures on the return,
and respondent agrees that date is the date of filing.

The certified copy of the Form 4340, Certificate of
Assessments, Payments, and Other Certified Matters, in the
record for petitioners’ 2005 taxable year (2005 Form 4340)
records the grant of an extension to June 15, 2006 (consistent
with sec. 1.6081-5(a)(5), Income Tax Regs.).
56

Although the 2005 Form 4340 records that petitioners’
2005 return was filed on July 26, 2006, respondent concedes on
brief that the return was filed on July 16, 2006, the date of
petitioners’ signatures on the return. Again, it makes no
difference whether the return was filed on July 16 or July 26,
2006, as either date is one month and a fraction of a second
month beyond the due date, resulting in an addition equal to
10% of the tax due and not paid (absent reasonable cause).
57

A81
Petitioners argue that they are not liable for the
addition to tax for 2003 because they timely filed
their 2003 return within an extended period agreed
to (both orally and in writing) by an IRS employee,
“given the issues of first impression being resolved
and the recent death of Petitioner husband’s parents
(after an extended illness in the case of one).”
Petitioners add that the IRS employee assured them
that they could file their 2003 return by the
extended date without adverse consequences. Mr.
Larkin further testified that his parents died one
month apart from each other in the first five months
of 2004 and that his life was chaotic around the time
that the 2003 return was due. Mr. Larkin further
testified that he believed that petitioners had
sufficient foreign tax credit carryovers to 2003 to
offset any tax otherwise due for that year and that
petitioners therefore believed that they had extra
time to file the return given the absence of any tax
liability for that year. Petitioners argue that they are
not liable for the addition to tax for 2005 because
they timely filed the 2005 return within an
automatic four-month extended period applicable to
overseas residents.
We disagree with petitioners’ claim that they
had reasonable cause for filing their 2003 and 2005
returns untimely. First, as to their claim that they
were granted an extension for filing the 2003 return,
we find nothing in the record to support that claim.
Mr. Larkin’s notes on his meeting with the revenue
officer on April 13, 2005, indicated that they
discussed the filing of an extension for 2004 (for
which year a tax return was soon due), but those
notes made no mention of the revenue officer’s
allowing petitioners to file their already late 2003

A82
return without penalty. In addition, while they claim
that they received such an extension in writing, we
find no such writing in the record. Likewise, while
they claim that an IRS employee also orally granted
them such an extension, we find no credible evidence
of that either.58 In fact, petitioners’ position that the
revenue officer gave them a valid extension as to
their 2003 return seems illogical considering that
the 2003 tax return was long overdue when the
revenue officer first contacted petitioners. As to the
2005 return, we add that petitioners have cited
nothing in the Code or in an administrative rule
prescribed thereunder that would give them in their
capacity as U.S. citizens living abroad an automatic
four-month extension.
Nor do we conclude that petitioners met the
reasonable cause exception by virtue of their claim
that Mr. Larkin believed that petitioners had
sufficient tax credits for 2003 to negate any tax for
that year, or due to the death of Mr. Larkin’s
parents. As to the former, the Code provides no
exception to imposing an addition to tax under
section 6651(a) on the grounds of a perceived
overpayment of tax for the year. As to the latter,
while undoubtedly Mr. Larkin experienced some
diminished capacity as a result of both his parents
dying in close succession, the test in these
circumstances is whether the taxpayer had capacity
to attend to other responsibilities besides return
filing. See Wright v. Commissioner, T.C. Memo.
1998-224, slip. op. at *5 (and cases thereat cited),
aff’d, 173 F.3d 848 (2d Cir. 1999). In view of the fact
Moreover, even if these statements were made, those
oral statements are not binding on the Commissioner. See
Schwalbach v. Commissioner, 111 T.C. 215, 228 n.4 (1998).
58

A83
that Mr. Larkin at least59 was functioning as a
partner at a major law firm and earning in excess of
$400,000 annually during the relevant period, we
conclude that petitioners did not have reasonable
cause for their failure to timely file returns. We
therefore sustain respondent’s determination that
petitioners are liable for additions to tax under
section 6651(a)(1) for 2003 and 2005.
XIV. Epilogue
We have considered all arguments that the
parties made for holdings contrary to those that we
reach herein and, to the extent not discussed, we
have rejected those arguments as without merit. In
order to reflect the foregoing,
Decisions will be entered under
Rule 155.

There is no evidence concerning Mrs. Larkin’s capacity
during the relevant periods.
59

A84
SERVED May 17 2017
UNITED STATES TAX COURT
WASHINGTON, DC 20217
Docket Nos. 14886-08, 19940-09
DANIEL E. LARKIN & CHRISTINE L. LARKIN,
ET AL.,
Petitioners,
v.
COMMISSIONER OF INTERNAL REVENUE,
Respondent
ORDER
On May 8, 2017, the Court received a document
from petitioners entitled “Motion for Clarification,
Supplementation of Record and Other Relief’. A
review of the document reveals that petitioners are
essentially seeking reconsideration of the Court’s
Opinion in these cases, as well as a reopening of the
record for possible receipt of additional evidence.
Consequently, the document is most accurately
characterized as a motion for reconsideration of
findings or opinion under Rule 161, Tax Court Rules
of Practice and Procedure, and will be filed as such.
Petitioners’ motion is untimely. Under Rule 161,
“[a]ny motion for reconsideration of an opinion or
findings of fact * * * shall be filed within 30 days
after a written opinion * * * [has] been served,
unless the Court shall otherwise permit.” The
opinion in these cases was served on April3, 2017.
Petitioner Daniel E. Larkin’s signature on the

A85
motion, the certificate of service, and the FedEx
delivery invoice are all dated May 4, 2017--31 days
after service of the opinion.
Although the Court may, under Rule 161, permit
additional time, we see no reason to do so in these
circumstances. In their motion, petitioners seek to
offer additional argument and/or evidence to
demonstrate error in respondent’s notices of
deficiency. They had ample opportunity to do so in
connection with the trial. Indeed, as noted in the
Opinion, they were accorded additional time to
prepare for trial. As recently noted by the Court of
Appeals for the Eleventh Circuit, “a motion for
reconsideration cannot be used to relitigate old
matters, raise arguments or present evidence that
could have been raised prior to the entry of
judgment.” Ruminski v. Commissioner, _ Fed. Appx.
_ , 119 A.F.T.R.2d 2017-768 (11th Cir. Feb. 15, 2017),
aff’g T.C. Memo. 2012-302.
Accordingly, insofar as petitioners’ motion seeks
reconsideration of our Opinion or reopening of the
record to present additional evidence, we shall deny
it.
To reflect the foregoing it is
ORDERED that the Clerk shall file the
document received from petitioners on May 8, 2017,
as petitioners’ Motion for Reconsideration of
Opinion. It is further
ORDERED that petitioners’ Motion for
Reconsideration of Opinion is hereby denied.
(Signed) Joseph H. Gale
Judge
Dated: Washington, D.C.
May 17, 2017

A86
SERVED Sep 14 2017
UNITED STATES TAX COURT
WASHINGTON, DC 20217
Docket Nos. 14886-08.
DANIEL E. LARKIN & CHRISTINE L. LARKIN,
Petitioners,
v.
COMMISSIONER OF INTERNAL REVENUE,
Respondent
ORDER AND DECISION
On April 3, 2017, an opinion was filed in this
case,1 directing entry of decision pursuant to Rule
155.2 Respondent filed a computation for entry of
decision on July 18, 2017. On August 31, 2017,
petitioners filed an alternative computation for entry
of decision. As directed by the Court, respondent
filed a supplement to his computation for entry of
decision on September 7, 2017.
Respondent’s computation sets forth detailed
computations that respondent contends are in
compliance with the Court’s opinion determining the
issues in this case. Petitioners contend in their
This case and the case at Docket No. 19940-09 were
consolidated for purposes of trial, briefing, and opinion.

1

Unless otherwise noted, all Rule references are to the Tax
Court Rules of Practice and Procedure, and all section
references are to the Internal Revenue Code of 1986, as
amended and in effect for the years at issue.

2

A87
alternative computation that the correct amount of
tax and penalties for each year at issue is zero.
The grounds petitioners assert for their
computation are without merit. Petitioners assert
that “the applicable statute of limitations under
Section 6502(a) of the Inten1al Revenue Code has
run, and the claims have expired.” Petitioners,
however, overlook section 6503(a), pursuant to which
the running of the statute of limitations on
assessment is suspended from the time a timely
petition for redetermination of a deficiency is filed
with the Tax Court until 60 days after the Court’s
decision becomes final. Thus, the statute of
limitations on assessment for petitioners’ 2003 and
2004 taxable years remains open, and once
assessment of the tax for those years is made, the
statute of limitations on collection will begin to run.
See sec. 6502.
Petitioners further rely on respondent’s May 29,
2017, issuance of Notices CP21C for their 2005 and
2006 taxable years (Docket No. 19940-09) in which
respondent indicates that the taxes and penalties for
those years have been reduced to zero. While
apparently respondent has issued no similar notices
for petitioners’ 2003 and 2004 taxable years,
petitioners contend that the rationale for
respondent’s 2005 and 2006 Notices CP21C applies
with equal force for the two earlier years.
Respondent explains in the supplement to his
computation that erroneous assessments of the full
amount of the deficiencies and penalties determined
against petitioners for their 2005 and 2006 taxable
years were made while the case at Docket No. 1994009 was pending in this Court. The Notices CP21C
reflect the abatement of those erroneous

A88
assessments. Thus, the Notices CP21C on which
petitioners rely have no impact on their liabilities for
the deficiencies and penalties redetermined in our
opinion.
Finally, petitioners point to what has been filed
as their motion for reconsideration. We have
previously addressed the points raised therein and
note further that Rule 155 “is not to be regarded as
affording
an
opportunity
for
retrial
or
reconsideration.” Rule 155(c); see also Cloes v.
Commissioner, 79 T.C. 933, 935 (1982) (“It goes
without saying that issues which have been litigated
at the trial of a case may not be relitigated in
connection with the entry of decision under Rule
155.”).
We agree with and adopt respondent’s
computation.
The foregoing considered, it is
ORDERED that respondent’s computation is
incorporated as the findings of the Court. It is
further
ORDERED AND DECIDED that there are
deficiencies in income tax due from petitioners for
the taxable years 2003 and 2004 in the amounts of
$81,698 and $63,619, respectively;
That there is a penalty due from petitioners for
the 2003 taxable year, under the provisions of I.R.C.
section 6651(a)(1), in the amount of$20,424.50; and
That there are penalties due from petitioners for
the taxable years 2003 and 2004, under the
provisions of I.R.C. section 6662(a), in the amounts
of $16,339.60 and $23,515.80, respectively.
(Signed) Joseph H. Gale
Judge
ENTERED: SEP 14 2017

A89
SERVED Sep 14 2017
UNITED STATES TAX COURT
WASHINGTON, DC 20217
Docket Nos. 19940-09.
DANIEL E. LARKIN & CHRISTINE L. LARKIN,
Petitioners,
v.
COMMISSIONER OF INTERNAL REVENUE,
Respondent
ORDER AND DECISION
On April 3, 2017, an opinion was filed in this
case,1 directing entry of decision pursuant to Rule
155.2 Respondent filed a computation for entry of
decision on July 18, 2017. On August 17, 2017,
petitioners filed an alternative computation for entry
of decision. As directed by the Court, respondent
filed a supplement to his computation for entry of
decision on September 7, 2017.
Respondent’s computation sets forth detailed
computations that respondent contends are in
compliance with the Court’s opinion determining the
issues in this case. Petitioners contend in their
This case and the case at Docket No. 14886-08 were
consolidated for purposes of trial, briefing, and opinion.

1

Unless otherwise noted, all Rule references are to the Tax
Court Rules of Practice and Procedure, and all section
references are to the Internal Revenue Code of 1986, as
amended and in effect for the years at issue.

2

A90
alternative computation that the correct amount of
tax and penalties for each year at issue is zero.
Petitioners rely on respondent’s May 29, 2017,
issuance of Notices CP21C for their 2005 and 2006
taxable years in which respondent indicates that the
taxes and penalties for those years have been
reduced to zero. Respondent explains in the
supplement to his computation that erroneous
assessments of the full amount of the deficiencies
and penalties determined against petitioners for
their 2005 and 2006 taxable years were made while
the case was pending in this Court. The Notices
CP21C reflect the abatement of those erroneous
assessments. Thus, the Notices CP21C on which
petitioners rely have no impact on their liabilities for
the deficiencies and penalties redetermined in our
opinion.
Petitioners also point to what has been filed as
their motion for reconsideration. We have previously
addressed the points raised therein and note further
that Rule 155 “is not to be regarded as affording an
opportunity for retrial or reconsideration.” Rule
155(c); see also Cloes v. Commissioner, 79 T.C. 933,
935 (1982) (“It goes without saying that issues which
have been litigated at the trial of a case may not be
relitigated in connection with the entry of decision
under Rule 155.”).
We agree with and adopt respondent’s
computation.
The foregoing considered, it is
ORDERED that respondent’s computation is
incorporated as the findings of the Court. It is
further
ORDERED AND DECIDED that there are
deficiencies in income tax due from petitioners for

A91
the taxable years 2005 and 2006 in the amounts of
$114,870 and $118,259, respectively;
That there is a penalty due from petitioners for
the 2005 taxable year, under the provisions of I.R.C.
section 6651(a)(1), in the amount of$11,487; and
That there are penalties due from petitioners for
the taxable years 2005 and 2006, under the
provisions of I.R.C. section 6662(a), in the amounts
of$22,974 and $23,651.80, respectively.
(Signed) Joseph H. Gale
Judge
ENTERED: SEP 14 2017

A92
UNITED STATES COURT OF APPEALS
FOR THE DISTRICT OF COLUMBIA CIRCUIT
No. 17-1252 September Term, 2019
USTC-14886-08
USTC-19940-09
FILED ON: June 15, 2020
DANIEL E. LARKIN AND CHRISTINE LARKIN,
APPELLANTS
V.
COMMISSIONER OF INTERNAL REVENUE,
APPELLEE
Before: Srinisvan, Chief Judge, and Rogers and Rao,
Circuit Judges.
ORDER
Upon consideration of appellants’ motion to
consider their final reply brief, the opposition
thereto, and the reply; appellants’ motion to limit
jurisdiction, appellee’s notice in response, and the
reply; and appellants’ petition for rehearing filed on
June 2, 2020, it is
ORDERED that the motion to consider
appellants’ final reply brief be denied as its filing
was unnecessary. On October 30, 2019, appellants
submitted to the court their final reply brief and a
supplemental appendix. The final reply brief was
filed and the supplemental appendix was lodged on
the docket. Both of these documents were considered
by the panel in its disposition of the appeal. It is

A93
FURTHER ORDERED that the motion to limit
jurisdiction be denied. It is
FURTHER ORDERED that the petition be
denied.
Per Curiam
FOR THE COURT:
Mark J. Langer, Clerk
BY: /s/
Michael C. McGrail
Deputy Clerk

A94
26 U.S. Code § 6751
(a) Computation of penalty included in notice
The Secretary shall include with each notice of
penalty under this title information with respect to
the name of the penalty, the section of this title
under which the penalty is imposed, and a
computation of the penalty.
(b) Approval of assessment
(1) In general
No penalty under this title shall be assessed
unless the initial determination of such
assessment is personally approved (in writing)
by the immediate supervisor of the individual
making such determination or such higher level
official as the Secretary may designate.
(2) Exceptions Paragraph (1) shall not apply to—
(A) any addition to tax under section 6651,
6654, or 6655; or
(B) any other penalty automatically
calculated through electronic means.
(c) Penalties
For purposes of this section, the term “penalty”
includes any addition to tax or any additional
amount.

A95
26 U.S. Code § 7491
(a) Burden shifts where taxpayer produces credible
evidence
(1) General rule
If, in any court proceeding, a taxpayer introduces
credible evidence with respect to any factual
issue relevant to ascertaining the liability of the
taxpayer for any tax imposed by subtitle A or B,
the Secretary shall have the burden of proof with
respect to such issue.
(2) Limitations Paragraph (1) shall apply with
respect to an issue only if—
(A) the taxpayer has complied with the
requirements under this title to substantiate
any item;
(B) the taxpayer has maintained all records
required under this title and has cooperated
with reasonable requests by the Secretary
for witnesses, information, documents,
meetings, and interviews; and
(C) in the case of a partnership, corporation,
or trust, the taxpayer is described in section
7430(c)(4)(A)(ii). Subparagraph (C) shall not
apply to any qualified revocable trust (as
defined in section 645(b)(1)) with respect to
liability for tax for any taxable year ending
after the date of the decedent’s death and
before the applicable date (as defined in
section 645(b)(2)).

A96
(3) Coordination
Paragraph (1) shall not apply to any issue if any
other provision of this title provides for a specific
burden of proof with respect to such issue.
(b) Use of statistical information on unrelated
taxpayers
In the case of an individual taxpayer, the Secretary
shall have the burden of proof in any court
proceeding with respect to any item of income which
was reconstructed by the Secretary solely through
the use of statistical information on unrelated
taxpayers.
(c) Penalties
Notwithstanding any other provision of this title, the
Secretary shall have the burden of production in any
court proceeding with respect to the liability of any
individual for any penalty, addition to tax, or
additional amount imposed by this title.

A97

A98

A99

A100

A101

A102

A103

A104

A105

A106

A107

A108

A109
EXCERPT
UNITED STATES TAX COURT
Washington D.C. 20217
12 January 2011
Docket Nos. 14886-08, 19940-09
In the Matter Of
Daniel & Christine Larkin
Petitioners
vs.
Commissioner of Internal Revenue
Respondent
INITIAL STATEMENT OF PETITIONERS
Nearly the entirety of the Service’s claims revolve
around five areas:
1. Foreign Tax Credits/Carryovers
2. Real Estate Sole Trader Business Expenses
3. Foreign Income Exclusion
4. Overseas Living Allowances
5. Self-Employment Tax
All the underlying foreign tax payments, overseas
sole trader expenses, overseas living costs and

A110
foreign self-employment taxes at issue are
customary and routine for the activities involved,
and have been properly incurred, documented, and
claimed under relevant IRS reporting requirements
and regulations, applicable law and the US/UK
Income Tax Treaty. Foreign tax credit carryovers,
foreign
income
exclusions,
overseas
living
allowances, and self-employment taxes have all been
properly computed and applied against US tax
liability.
The Service’s determination to adjust various income
and expense items is without foundation, and results
primarily from the field examiner taking issue with
specific guidance from other Service officers as to
reporting format and mechanics (especially with
respect to mixed law partnership and sole trader
income/expense items), rather than fully evaluating
the underlying facts and documentation. The
misunderstandings have been compounded due to
the fact that the field examiner, in two separate
audits and over the objections of Petitioners,
declined to review available primary documents and
records supporting the claimed payments and
expenses, and declined to engage in even basic
dialogue with Petitioners that would have resolved
the matters at issue. The Service further proceeded
to issue Notices of Determination without

********************

A111
********************
37. Whether petitioners are liable for additional selfemployment tax of $23,474.00.
This is disputed by Petitioners, as they have
been paying into the UK social and medical
insurance schemes and have met the tests under
the US/UK Tax Treaty for credit against
US
obligations.
Penalties
1. Whether petitioners are liable for accuracy
related penalties under I.R.C. Sec.6662.
This is disputed by Petitioners. All gross income
of Petitioners has been properly declared and
included in the Returns. The various credits,
exclusions, deductions and other adjustments
have been properly calculated and presented,
and supported. The examiner in this case has
taken issue with presentational approaches, but
this is an entirely different matter.
2. Whether petitioners are liable for failure to
file penalties under I.R.C. Sec. 6651(a)(1) for
taxable years 2004 and 2005.
This is disputed by Petitioners. The relevant
Returns were timely filed under extensions
applicable to overseas residents. Moreover the
filing timelines for these Returns were agreed to
with the Service in writing and complied with.

A112
SUMMARY OF FACTS
Reference is made to the trial record in the case.
BURDEN OF PROOF
Fully credible evidence respecting underlying factual
issues has been presented at trial and this and all
other evidence and records required to support
claims was made available to the Service during the
examination and review process (and remains
available to this day). Prior to the involvement of its
Appeals Office (which only came after these matters
had been set for trial, and not, as is appropriate,
after Petitioners’ objections to the examiner’s
proposed adjustments), the Service repeatedly
declined to conduct appropriate examination of the
same under relevant law and regulation, in
particular as these authorities are applicable to the
circumstances of taxpayers resident overseas. The
Service then objected to the entrance of extensive
Appeals
correspondence
and
supporting
documentation into the trial record and the
subpoena of the examiner. The burden of proof
should be shifted to Respondent under I.R.C. Sec.
7491(a) and the Federal Rules of Civil Procedure and
Respondent estopped from asserting claims as to
inadequacy of records when it declined in the first
instance to even examine them and then
subsequently objected to their submission into
evidence in this proceeding.
********************

A113
EXCERPT
IN THE UNITED STATES COURT OF APPEALS
FOR THE DISTRICT OF COLUMBIA CIRCUIT
Docket No. 17-1252
In the matter of
DANIEL E. LARKIN AND
CHRISTINE L. LARKIN,
Appellants
v.
COMMISSIONER OF INTERNAL REVENUE
Appellee
Final Appellant Opening Brief
October 19, 2019
Daniel E. Larkin, Esq.
244 Cheshire Way
Naples, Florida 34110
delarkin10@icloud.com
312-863-0740

********************

A114
********************
VII--Reporting of SSD Items
The Court sustains Appellee findings that an SSD
distributive share of $29,734 for 2005 was not
reported and that an SSD rental expenses flow
through of $8,610 was not allowable. In the case of
the former this is simple math, and the Item was
included in the total Gross Income on which the
Schedule C was prepared. In the case of the rental
expenses, this is a large partnership item entitled to
deference.
VI-Penalties for Misstatement
Under IRC Sec Sec. 7491 (c) and 6751 (b)(1)
Commissioner has an absolute burden of submitting
adequate proof that proper internal procedures were
followed in assessing such penalties (e.g. evidence of
supervisorial approval). See Graev v. Commissioner,
149 T.C. 23 (2017); Chai v. Commissioner, 851 F. 3d
190 (2017). This has simply not been done. In any
event, sufficient good faith showings were made at
Trial demonstrating that there is no justification for
such penalties. Some penalties are also tied to issues
where the Court finds for Appellant such as proper
reporting of SSD gross income payments, or
conceded by Appellee (e.g. self-employment tax).
Appellee has also advised it will seek an adjustment
of the penalty amount to 20%.

********************

A115
********************
VIII--Real estate trading/investment expenses have
been incorrectly disallowed.
IX--In respect of late filing penalties for 2003, 2005,
no penalties are due as at the time of required filings
no taxes were due. In any event, the time delays
were minor and basic statutory penalties have been
paid. The year 2003 was also governed by a late
filing agreement which was complied with. For 2005,
the return was filed well within the automatic
extension period for overseas residents.
X--In respect of misstatement penalties under IRC
6662(c), Appellant has an absolute burden of
production under IRC Sec. 6751 (b)(1), which it has
not met, with the consequence that, under IRC Sec.
7491 (c)no penalty may be assessed. In any event,
the Returns were prepared in good faith and
Taxpayers have followed all relevant requirements
in communicating with Appellee.
Relief Sought
I-Findings and Declaratory and other appropriate
relief that $ 183,314.07 of foreign tax credits were
available for credit against tax liability beginning in
2003, and that a further $22,171.61 of useable
credits were generated in 2003-2006.
II-Findings and Declaratory and other appropriate
relief that the burden of proof was shifted to
Commissioner in respect of Items IV, V, VI and VII
in the Statement of Issues (Housing, IRA, Medical,

A116
SSD foreign taxes) and that Commissioner has not
met this burden and no tax is due in respect of these
items.
IV-Findings and Declaratory and other appropriate
relief that the findings of the Court for 2003, 2004
and 2006 are moot.
V-Findings and Declaratory and other appropriate
relief that a 2006 parental IRA distribution and a
2005 law firm distribution were properly declared
and substantiated.

********************

A117
IN THE UNITED STATES COURT OF APPEALS
FOR THE DISTRICT OF COLUMBIA CIRCUIT
Docket No. 17-1252
In the matter of:
DANIEL E. LARKIN AND
CHRISTINE L. LARKIN
Appellants
v.
COMMISSIONER OF INTERNAL REVENUE
Appellee

Petition for Rehearing
June 2, 2020

Daniel E. Larkin, Esq.
244 Cheshire Way
Naples, Florida 34110
delarkin10@icloud.com
312-863-0740

A118
The Fundamental Requirements of the Federal
Rules of Appellate Procedure for the consideration of
an initial Appellant Brief followed by an Appellee
Reply Brief and an Appellant Final Reply Brief (and
then final proof briefs given the use of Deferred
Appendices) have not been observed. Appellant Final
Reply Proof Brief (“FRPB”) was not even of record
when initial judgement was rendered. Comments in
the ruling also indicate that Appellant Opening
Proof Brief (“OPB”) with extensive record references
therein was not reviewed. The result is that the
merits of the case and relevant record references
have not been properly considered.
This matter concerns tax years 2003-2006. Taxes
were paid by application of foreign tax credits from
these and prior years. The original Notices of
Deficiency were issued in 2008 and 2009. A Tax
Court trial was held in 2010 and a Final Opinion
issued on September 14, 2017, with findings in part
for Appellants. Appeal was made to this Court, and
following an inconclusive mediation effort, went to
briefing in 2019, which briefing was impacted by
several Motions in opposition from Appellee and the
use of Deferred Appendices. The initial Final Reply
Brief, initial Deferred Appendix and Final Reply
Proof Brief were objected to by Appellee. The Court
asserts forfeiture on some matters, but overlooks the
Final Proof Opening Brief’s extensive paginated
citations that anchor Appellant position, and
entirely overlooks the Final Reply Proof Brief, with
its detailed supportive citations (55+), as it was not
of record when judgement was rendered. Appellee
has made no such argument, and submitted its own
Deferred Appendix.

A119
The most recent Motion concerned the acceptable
contents of Appellant Final Reply Brief, and was
resolved in favor of Appellants on April 21, 2020.
Prior to the Final Reply Brief and Final Reply Proof
Brief becoming of record the court had issued its
initial judgement earlier on April 21, 2020. A Motion
to have the Final Appellant Reply Proof Brief
considered before rendering judgement is pending
before the Court. There was no Oral Argument.
Appellants seek a rehearing and stay of judgement
as set out below (which summarizes the briefs,
including the Final Reply Proof Brief now of record
post-judgement).
I. Judgement has been rendered prematurely, prior
to the Final Appellant Reply Proof Brief being of
record and available for consideration by the Court
in rendering judgement. FRAP §40 and relevant law
requires consideration of Appellant Final Reply
Proof Brief.
As acknowledged by the Court in granting
Appellant Motion to file its Final Reply Brief, with
critical appendices and arguments referring to the
same, which had been contested by Respondent,
proper consideration of Appellant Final Reply Proof
Brief is an essential part of rendering any judgement
in this matter and required by relevant Federal
Rules of Appellate Procedure and principals of law.
As a result of the Final Appellant Reply Brief only
being accepted into the Record post-judgement this
has not happened and should be corrected. It is also
appears, based upon Court comments as to lack of
anchoring references, that the ruling was based on a
reading of the initial Appellant Opening Brief, as a

A120
Deferred Appendix was being used, rather than the
Final Proof Brief, which contains such extensive
record citations.
II. The Tax Court made a variety of clear errors of
fact that should be overturned as a matter of law,
some of which are based on pure speculation without
any foundation in the record or otherwise and some
of which contravene record evidence and the Court’s
own findings.
These include:
a) The Court’s disallowance of Appellant
business expense deductions associated with their
trading and investment activities (and totally
separate from Appellant husband’s law practice) is
made on the basis that such expenses were
reimbursable by Appellant husband’s law firm
(Mem. Op. pp. 47-54). This would have been an
impossibility under the terms of Appellant law firm’s
partnership agreement, was not an issue raised by
Respondent at trial or in post-trial briefings, has no
substantiation in the record (nor could it), and was
pure unfounded speculation on the Court’s part. The
Court notes potential issues about the support for
the deductions, but does not rule on that basis.
b) The Court’s disallowance of various TEFRA
items (e.g. medical, pension, housing, foreign tax
credits), overlooks determinative Record evidence
supporting these deductions (see below), in
particular the K-1s from Appellant husband’s large
law firm partnership governed by TEFRA. The
housing expense rules operated under a broader set

A121
of calculations at the time, and the Court has not
applied the proper calculation. And Respondent
failed in its burden shifting substantiation
requirements under TEFRA, which the Tax Court
acknowledges are governing on these issues.
c) Appellant husband’s participation in the UK
social security program was properly substantiated
and Appellee has confessed error to that effect. No
US self-employment tax deduction was taken in
these years.
d) The Morgan Stanley distribution claimed to be
unreported was in fact reported (see Sch. E, Part Ill,
2006 Return).
e) A law firm distribution in 2005 of $29,734
claimed to be unreported was in fact reported (see
SSD K-1).
f) The Tax Court at one point says Schedules Cs
were not filed, and then contradicts itself to find they
were filed, and essentially all gross income properly
reported (except for a claimed 2005 calculation
mistake which was in error, as per the preceding
item).
g) The Tax Court overlooks a written late filing
agreement executed in London in 2005 at the US
Embassy, which are fully binding on Appellee.
h) The Tax Court finds that there is an
inadequate record of the application of foreign tax
credit carryforwards from prior years. This is done
and only done through prior year Form 1116s from

A122
the Returns which are of record and acknowledged
by Respondent as the basis for the calculations.
There is no other evidence as to income in the years
and application of foreign taxes against income that
would impact these calculations, it is all within this
portion of the Returns. The calculations are correct
and these prior return years have been closed for
over 15 years. The Court also incorrectly calculated
the amount of UK tax payments and SSD foreign tax
payments in the total of $77,100.68 (see below).
i) The Tax Court was required to enforce the
requirements of Code §6751 {b){1) which imposes an
absolute burden of production on Respondent to
show proper internal approval of misstatement
penalties, which it did not meet, despite Appellant
objections.
j) The Tax Court accepted without scrutiny
counsel’s representation that the CP21 C Notices
issued by Respondent on May 17, 2017, eliminating
all taxpayer liability for 2005 and 2006 were a
mistake. They were not, were issued outside the Tax
Court proceedings, remain in effect and are fully
binding.
III. Respondent CP21 C Notices of May 17, 2017,
removing all taxpayer liability for years 2005 and
2006, were final and binding agency action at the
time, remain in full force and effect, and divested the
Courts of jurisdiction for said years at the time.
The Tax Court’s acceptance without review of
Respondent counsel’s assertion at the time that the
Notices were a mistake was unwarranted. The

A123
Notices were issued independently of the Tax Court
proceedings, in part due to communications with the
UK tax authorities, and remain in full force and
effect today.
IV. The UK and other foreign tax credits taken in
the period were proper under relevant foreign tax
treaties, have been fully substantiated, and the
application of all relevant reductions in available
credits for carryforward from prior years
substantiated in the record with all relevant
excerpts from Returns from prior years. Respondent
makes unfounded speculations as to the Credits
having been used up. The Form 1116 portion of the
Returns of Record from relevant prior years contain
a full tally of income, available credits and credits
taken on a year by year basis; other parts of the
Returns add nothing to this. The only issue is the
correctness of the mathematical calculations which
were accepted at the time for years which have been
closed for over 10 years at a minimum without
challenge. Respondent accepted the application of
$167,000 of the same carryforward credits for now
closed tax year 2007.
V. Penalties have been improperly assessed.
In respect of misstatement penalties Respondent
has an absolute burden of production under Code
section 6751 (b)(1) and 7491 (c) to show that proper
supervisorial approval was obtained which it has
failed to do, notwithstanding Appellant’s repeated
protestations during these proceedings from
inception.

A124
The Court also overlooks the binding and
enforceable of record late filing agreement executed
by Appellants and Respondent by its fully
empowered representative on April 13, 2005 in
London.
Discussion
The failure to include Appellant Final Reply
Brief in the proceedings has meant that across the
board key rebuttals to points raised in Appellee
Reply Brief (and anchoring Record and supplemental
evidence) have simply not been considered as
required under FRAP §28 and relevant law of
Appellate Procedure.
1. Respondent asserts that Taxpayers are not
entitled to the Housing Allowance for two of the four
years in this period on the basis that their
documented expenses were less than required, but
have mistakenly applied current day regulations to
the years in issue. Regulations in effect at the time
(Appellant FRPB, Appendix II) used a much broader
definition of eligible expenses, including mortgage
interest, which have been substantiated, and were
funded by SSD in all four years (and therefore
entitled to TEFRA large partnership deference) as
part of an overseas cost of living allowance paid
within gross distributions to Taxpayer. Under
relevant TEFRA provisions, the SSD K-1s and pay
statements are fully adequate to substantiate
Pension, Medical, Housing and Foreign Tax
deductions and credits, and the 2003 SSD rental loss
deduction. The 2005K-1 ordinary income item of
USD 29,734 was in fact reported, rolled up into the

A125
gross distribution figure from SSD on the same basis
as this line item was in all other years.
2. The Tax Court’s partial disallowance of
mortgage interest and property tax items is not
supported. A U.S. records standard is incorrectly
applied to customary UK records and third party
statements, and there is no explanation of the basis
for partial disallowance.
3. Taxpayer Returns were timely filed under a
written late filing agreement with the IRS. There
was no understatement of income and Respondent
has an absolute burden of production in the case of
misstatement penalties under IRC § 6751 (b), which
it did not meet.
4. Petitioners have met the “credible evidence”
standard of Higbee v Commissioner, 116 T.C. 438
(2001), consistently challenged other cited findings
in this context, and fully complied with Federal Rule
of Appellate Procedure 28(a)(8) in respect of
anchoring their arguments.
5. Time of Filing
The finding is made that Returns for 2003 and
2005 were filed late. The Record is clear there were
written extensions (not oral as asserted by
Respondent) with Commissioner to delay the filings
and submitted a written agreement (Form 9297, of
record) with Revenue Officer Michael Palazzo in
London on April13, 2005 to anchor this (Trial
Record, Exhibit 16-P). This deferred filing agreement
is in evidence, and all filings were timely made in

A126
accordance with it. Extension requests for 2005 are
in the Record (Trial Exh. 21 -R).
6. Foreign Tax Credits/Tax Treaties
Written confirmations from primary Taxpayer’s
then employer PricewaterhouseCoopers (in the
Corporate Finance Group) and the UK HMRC
confirming the amount of UK taxes paid by
Petitioner in 1999-2001 (of $393,462) are in evidence
(Trial Exhibit 13-P), and subsequently confirmed by
HMRC mutual assistance proceedings under the
US/UK Income Tax Treaty, Art 24-27 (FRB App.
VIII), as are the amount of US taxes paid in these
years and in 2002, it being noted that the payments
were made over four UK years but only three US
years. Beginning in 2001, foreign tax payments were
made by Taxpayer’s law firm, and disclosed in the
relevant K-1 s, generating an additional $29,250.68
of foreign tax credits through 2006. The Court’s
calculations of UK taxes paid (Memo Opinion, p. 6)
overlooks $47,850 of 1999 UK payments which are of
record (Trial Exhibit 13-P) and the entirety of SSD
foreign tax payments. (which are a line item in each
SSD K-1), a total of$ 77,100.68.
The subtraction of US taxes in the period to 2003
from the total paid to the UK and other foreign
governments generates a net available carryforward
credit for 2003 of $183,314.07. And an additional
$22,171.61 of foreign tax credits was generated in
2003-2006, meaning a total of $205,485.07 in foreign
tax credits was available in the 2003-2006 period.
The Returns submitted by Taxpayer demonstrate
this. Returns with 1116s for 1999, 2000 2007 were
specifically approved by Commissioner as part of the
now closed tax cases for those years. Returns with

A127
1116s for 2000, 2001, 2002 and 2003 were reviewed
and agreed in the London meeting with Mr Palazzo.
Return 1116s prepared for Appeals for years 2000 to
2004 referred to by the Tax Court in its decision
(Memo Opinion, p.72) were admitted into evidence
(Trial Record, Exh.15-P). The Appeals calculations
actually increase the carryforward available in 2003
to $218,455 (a 6% Increase).
The original NODs denied the credits based on
the statement that payment had not been
substantiated.
At
trial
the
Commissioner
acknowledged payment but asserted that the credits
had been used up, without any analysis to support
this. Beginning with the Tax Court proceedings for
1999/2000, followed by the Palazzo meetings where
the 2002, 2003 Returns with Form 1116s were
agreed, the Appeals proceedings where revised
Return Form 1116s for 2000-2006 were agreed,
through to Trial with the actual Return Form 1116s
in evidence, and the 2007 Dismissal, a multiplicity of
IRS officials have reviewed and signed off on
Appellant FTC credits available and income applied
against them beginning in 1999 (when Taxpayers
moved to London) through 2007. A total of at least
$205,485.07 in FTC credits was available to
Petitioners in 2003-2006, a figure also acknowledged
by Respondent in seeking dismissal of the 2007 case.
7. Burden of Proof
The original Notices of Deficiency did not cover
the following matters first raised by Respondent at
Trial
(thereby,
especially
given
Appellant
submissions of testimony and evidence at Trial,
shifting the burden of proof to Commissioner under
IRC Sec. 7491 (a)):

A128
a) Foreign Income Tax Credit Calculations (as
distinct from tax payment substantiation)
b) Housing Exclusion (2005, 2006)
c) TEFRA Items (IRA, Medical, Housing, SSD
foreign taxes)
d)
Non-law
practice
real
estate
trading/investment expenses
And while the burden of proof on such matters
shifts to Appellee, it has not been sustained. IRC
Sec. 3504, 7522(a). See also GAF Corp. V.
Commissioner, 114 T.C. 519 {2000).
8. TEFRA
The Tax Court acknowledges (Opinion p. 2) it
has no jurisdiction to determine SSD “partnership
items” and treats them as “being reported correctly”.
The following items were paid by Appellant’s law
firm at the time and reported in Appellant K-1
filings made by the firm, as well as the SSD draw
statements (Trial Exhibit 20-P):
*Foreign Tax Credits
*Cost of Living Adjustment/Housing
*Medical
*Keough/IRA
Under IRC Sec 6231 (a)(3) (TEFRA large
partnership provisions) these are entitled to
deference and Commissioner has the burden of
disproving them, as acknowledged by the Tax Court,
citing Maxwell v. Commissioner, 87 T.C. 783 (1986).
See also Munro v. Commissioner, 92 T.C. 71 (1989).
Appellee has not done so.

A129
The Court finds (Mem. Op, p.57) that the SSD K1s referring to IRA deductions for 2004, 2005 are not
of record. This is not the case (see Trial Exhibits 2-4
J). The Court even refers to excerpts from these K-1s
elsewhere in the Opinion (e.g. in reference to the
$29,734 distribution from SSD in 2005 and at
Opinion pps. 3, 9, 18, 19, 24, 25, 30).
The IRA deductions/contributions are shown in
the Footnotes/Sch 3 to the SSD K-1 s. Medical
expense
deductions
are
shown
in
the
Footnotes/Schedule 4 to the SSD K-1 s. Both
deductions are also shown in the SSD draw
statements (Trial Exhibit 20-P). The Cost of Living
Adjustment payments which are the basis for the
housing exclusion are reported as part of gross
income in the SSD K-1 sand also separately broken
out in the SSD cost of living adjustment statements
(Trial Exhibit 20-P).
The Court asserts that the Housing Exclusion is
not substantiated. Substantiation in this case
primarily relates to showing evidence that the
relevant employer payment has been made.
Appellants have done this. Respondent incorrectly
states the eligible costs for the Housing Exclusion,
attempting to apply the much stricter standards of
today to the years in question. Attached as App. II to
Appellant FRPB now of record post-judgement is the
IRS Instructions for Form 2555 from 2003, which
specially permit costs such as mortgage interest,
school fees et. al., which costs were substantiated at
Trial and included within the Form 2555
calculations
attached
to
the
Returns
(as
acknowledged by Appellee).

A130
9. Business Expenses
The Court finds that real estate business
expenses are not deductible as they were reimbursed
or reimburseable by Taxpayer’s law firm (which is
pure speculation on the Court’s part and without
substance) and asserts that (Opinion, p. 7) no
Schedule Cs for the real estate business were filed.
The substantive evidence in the record is completely
to the contrary, with Commissioner fully
acknowledging the separated income and expense
stream associated with Taxpayers’ non-consulting
real estate trading/investment activities (which
generated a profit of $147,428 in 2007) (Trial Record
pps. 46-49, 67-70, 84, 137, 185). See IRC §162.
Schedule Cs combining both are of record and
regularly referred to by Commissioner and the Judge
during trial, as well as throughout the Court’s
opinion. Some, but not all of the relevant revenue
was flowed through the SSD returns as, pursuant to
the London meeting with Mr Palazzo, it was non-law
consulting income and Director fees required to be
shared under the partnership agreement. At trial
Commissioner departed from this assertion in the
NODs and focused on substantiation of claimed
expenses. The burden was shifted and Taxpayers
have presented substantive evidence to this effect
not rebutted by Commissioner. In any event the
Court’s ruling is limited to the context of expenses
reimbursable by primary Taxpayer’s law firm, which
did not include these (Mem. Op. pp. 47-54).
10. IRA Distribution
The Court sustains Commissioner’s assertion
that a 2006 parental IRA distribution was not
reported. This is not correct. It is reported in Part III

A131
of Schedule E of the 2006 Return and, the
supporting broker statement from Morgan Stanley is
attached to the return (Tr Exh 4-J; FRPB App. III).
11. Itemized Deductions
The Court sustains Commissioner’s partial
disallowance of home mortgage interest and real
estate taxes though the grounds for this mixed result
are not explained in the Notices of Deficiency.
Taxpayer has submitted customary UK bank
confirmations that the relevant mortgage facilities
were in place and kept current during this period
(Trial Exhibit 8-P). It has also submitted customary
confirmations that UK property taxes were being
paid and the amounts (Trial Exhibit 9-P). In the case
of Taxpayers’ residential property in Wisconsin it is
held through an LLC owned with another couple, the
husband being the Managing Member, for which a
tax return (of record) was independently prepared
and substantiated the underlying mortgage interest
and real estate taxes. Evidence of charitable
contributions are of record as well as part of the
original filed Returns carried into the Trial Record
from Appeals. These showings have met the
reasonableness test of substantiation, particularly in
respect of customary foreign records, thereby
shifting the burden of proof to Commissioner, which
it has not met. IRC Sec. 3504. T.C. Rule 142 (a). See
also Helvering v. Taylor, 293 U.S. 507 (1935);
Palmer v. IRS, 116 F. 3rd 1309 (1997); Berkery v.
Commissioner, 91 T.C. 179 (1988) and IRC 7491 (a).
12. Reporting of SSD Items
The Court sustains Appellee findings that a SSD
distributive share of $29,734 for 2005 was not

A132
reported and that an SSD rental expenses flow
through of $8,610 was not allowable. In the case of
the former this item is the same line item in the K-1
reported in all the other years and included in, and
not additional to, the total SSD distribution on
which the Schedule C was prepared. The Court had
no basis for double counting it in this year.
In the case of the rental expenses, this is a large
partnership item entitled to deference, as Taxpayer
has no ability on his own to further substantiate the
item, that being the purposes of the TEFRA
provisions of the Code.
13. Penalties for Misstatement
Under IRC Sec Sec. 7491(c) and 6751(b)(1)
Commissioner has an absolute burden of submitting
adequate proof that proper internal procedures were
followed in assessing such penalties (e.g. evidence of
supervisorial approval). See Graev v. Commissioner,
149 T.C. 23 (2017); Chai v. Commissioner, 851 F. 3d
190 (2017). This has simply not been done, and the
matter has never been waived by Petitioners. Some
penalties are also tied to issues where the Court
finds for Appellant such as proper reporting of SSD
gross income payments (Op 14, 18, 23, 29) TEFRA
items, and overseas income exclusion, or conceded by
Appellee (e.g. self-employment tax), consciously
overlooked by Appellee in its Reply.
Most importantly, the Court overrules the NOD
findings on which the income misstatement
penalties were primarily based, accepting that
Petitioner did in fact properly report gross income in
its Schedule C and other calculations (excepting
possibly the IRA distribution and 29k SSD
distribution) (Mem. Op. pp. 14, 18, 23, 29).

A133
14. Other
In its Reply Appellee challenges the validity of
the CP21 C Notices abating all liability for 2005 and
2006 and the Appeals notice inviting Petitioners to
restart proceedings for 2003, thereby rendering
proceedings in this case moot. Respondent asserts
this on the theory of mistake, which is not the case.
Under IRC §6406 they are final and binding.
Appellants reiterate and reaffirm the statements
and positions in Appellant Final Reply Brief, the
pleadings for relief and action therein, and again ask
that the Appellant Final Reply Brief and Proof Brief
now of record be given appropriate consideration
along with the Final Proof Opening Brief.
Respectfully submitted,
/s/
DE Larkin for Appellants
June 2, 2020

A134
Excerpt from IRS Collections, Activities,
Penalties, and Appeals, Table 26 (available at
https://www.irs.gov/statistics/collections-activitiespenalties-and-appeals ).
Civil Penalties Assessed and Abated, by Type
of Tax and Type of Penalty, Fiscal Year 2019
[Money amounts are in thousands of US dollars]
Civil penalties
assessed
Total Civil Penalties
Number
Amount
40,161,325 40,486,209

Civil penalties
abated
Number Amount
4,254,126 11,398,253

Total Civil Penalties for Individual and Estate
and Trust Income Taxes
Number
Amount
Number Amount
32,828,655 14,169,849
3,091,328 2,246,104
Accuracy
573,070
1,164,789
49,318
269,581
Bad check
862,562
76,150
9,774
17,398
Delinquency
2,916,647
4,323,077
362,780
1,094,069
Estimated tax
9,660,848
2,225,146
478,080
101,777
Failure to pay
18,809,087 6,225,366
2,188,926 739,690
Fraud
1,825
89,811
150
12,790
Other
4,616
65,509
2,300
10,799

A135
Excerpt from Annual Report to Congress 2018,
National Taxpayer Advocate, Vol.1, Most
Serious Problems #20 (available at

https://taxpayeradvocate.irs.gov/Media/Default/Documents/2018ARC/ARC18_Volume1_MSP_20_TAXCOURT.pdf)

PRE-TRIAL SETTLEMENTS IN THE U.S. TAX
COURT: Insufficient Access to Available Pro Bono
Assistance Resources Impedes Unrepresented
Taxpayers from Reaching a Pre-Trial Settlement
and Achieving a Favorable Outcome
RESPONSIBLE OFFICIALS
William M. Paul, Acting Chief Counsel
Mary Beth Murphy, Commissioner, Small
Business/Self-Employed Division
Donna Hansberry, Chief, IRS Office of Appeals
TAXPAYER RIGHTS IMPACTED1
■ The Right to Be Informed
■ The Right to Challenge the IRS’s Position and Be
Heard
■ The Right to Appeal an IRS Decision in an
Independent Forum
■ The Right to Pay No More Than the Correct
Amount of Tax
■ The Right to Retain Representation
■ The Right to a Fair and Just Tax System
DEFINITION OF PROBLEM
Taxpayers unable to afford representation to defend
against a potential IRS assessment or collection
action may believe there are only two courses of
See Taxpayer Bill of Rights (TBOR), www.taxpayerAdvocate.
irs.gov/ taxpayer-rights. The rights contained in the TBOR are
also codified in the Internal Revenue Code (IRC). See IRC
§ 7803(a)(3).
1

A136
action: do nothing, or proceed unrepresented.2 When
it comes to civil justice problems involving money or
housing, poor households are twice as likely to do
nothing than moderate-income households,
according to legal scholars.3 The U.S. Tax Court is
the only prepayment judicial forum for taxpayers to
resolve their disputes with the IRS. More than 80
percent of cases in Tax Court are brought by
unrepresented taxpayers, and that
percentage increases to almost 94 percent among
cases where the deficiency for a tax year is $50,000
or less and the taxpayer elects small tax case

When it comes to civil justice problems
involving money or housing, poor households
are twice as likely to do nothing than
moderate-income households, according to
legal scholars.

Unlike in the context of criminal cases, litigants in civil cases
with limited means have no right to counsel. See Gideon v.
Wainwright, 372 U.S. 335 (1963). However, Congress has
codified the TBOR, including the right to retain representation
in dealings with the IRS, which includes the right to seek
assistance from a Low Income Taxpayer Clinic (LITC) if the
taxpayer cannot afford to hire a representative. See IRC
§ 7803(a)(3) and TBOR,
www.taxpayerAdvocate.irs.gov/taxpayer-rights.
3 Rebecca L. Sandefur, The Fulcrum Point of Equal Access to
Justice: Legal and Non-Legal Institutions of Remedy, 42 Loy.
L.A. L. Rev. 949, 972-973 (2009); see also Marc Galanter, Why
The “Haves” Come Out Ahead: Speculations on the Limits of
Legal Change (1974) 9 Law & Soc’y Rev. 95, 99-100, fn. 11
(suggesting modest income claimants less familiar with
litigation will be risk aversive and consequently less attracted
by uncertain gains and more apprehensive about the potential
losses of litigation).
2

A137
(S Case) procedures.4 The portion of self-represented
litigants in Tax Court is consistent with litigants in
civil cases in other state and federal courts.5
For over 20 years, Tax Court judges have steadfastly
supported programs such as the Clinical, Student
Practice & Bar Sponsored Calendar Call Program to
bring together unrepresented litigants and
representatives offering pro bono assistance.6 More
recently, programs such as Pro Bono Days seek
to encourage resolution of litigation 30 days or more
before the scheduled trial date. Despite broadbased
institutional support for programs, and high rates of
same-day resolution for attendees, taxpayer

American Bar Association (ABA), Tax Section Court
Procedure Committee, Office of Chief Counsel, IRS, fiscal year
(FY) 2017 PowerPoint presentation, slides 18, 13. A taxpayer
may elect the “small tax case” procedure, known as S case
procedures, for cases involving up to $50,000 in deficiency per
year (including penalties and other additions to tax, but
excluding interest). S cases have advantages; they are less
formal, and can be heard in about 15 more cities than regular
cases, https://www.ustaxcourt.gov/taxpayer _ info_ start.htm.
5 According to The Justice Index, a project of the National
Center for Access to Justice at the Fordham Law School, as
many as two-thirds of litigants appear without lawyers in
matters as important as evictions, mortgage foreclosures, child
custody and child support proceedings, and debt collection
cases in state courts. The Justice Index 2016,
http://www.justiceindex.org/ (last visited Sept. 20, 2018). See
also Memorandum from Lisa Wood, Chair, ABA Standing
Comm. on Legal Aid and Indigent Defendants, to Fin. Comm.,
Bd. of Dirs., Legal Serv. Corp. 2 (June 2, 2014) (reporting a
“trend toward involuntary self-representation”).
6 Keith Fogg, History of Low-Income Taxpayer Clinics, 67 Tax
Law. 1, 77 (2014).
4

A138
participation rates remain inconsistent. The
National Taxpayer Advocate is concerned efforts to
provide unrepresented petitioners access to free,
competent advice are being undercut and underused
because of ineffective outreach and lack of consistent
guidance between the IRS Chief Counsel and pro
bono representatives which undermine the
taxpayers’ rights to be informed, to retain
representation, and to a fair and just tax system, and
increases the burden on the Tax Court.
ANALYSIS OF PROBLEM
Background
Litigating a Controversy in Tax Court
A taxpayer can obtain judicial review of an IRS
liability determination by the Tax Court, a district
court, the U.S. Court of Federal Claims, or the
Bankruptcy Court.7 For a taxpayer unable to afford
to hire someone for representation, the Tax Court is
particularly accessible because it is the only

With limited exceptions, taxpayers have an automatic right of
appeal from the decisions of any of these courts. See IRC §
7482, which provides that the United States Courts of Appeals
(other than the United States Court of Appeals for the Federal
Circuit) have jurisdiction to review the decisions of the Tax
Court. See also 28 U.S.C. § 1294 (appeals from a United States
District Court are to the appropriate United States Court of
Appeals); 28 U.S.C. § 1295 (appeals from the United States
Court of Federal Claims are heard in the United States Court
of Appeals for the Federal Circuit); 28 U.S.C. § 1254 (appeals
from the United States Courts of Appeals may be reviewed by
the United States Supreme Court).

7

A139
pre-payment forum for judicial review (other than
the Bankruptcy Court).8
*****************************

IRC §§ 6212, 6213. The 90-day period becomes 150 days if the
notice is mailed to a foreign address. Id. The IRS may also
assess tax without first sending a notice of deficiency if it
determines that collection is in jeopardy. See IRC §§ 6851,
6861, 6862, 6871. The IRS can assess certain “assessable”
penalties without sending a notice of deficiency or otherwise
triggering the Tax Court’s jurisdiction. For example, the
penalties in Subchapter B (i.e., IRC §§ 6671-6725) are expressly
excluded from the deficiency process. See IRC § 6671(a); Smith
v. Comm’r, 133 T.C. 424, 428 n.3 (2009).
8

